                                                                            Table of Contents

                    THE LIBRARY OF CONGRESS 

                  Financial Statements for Fiscal Year 2008 


                            TABLE OF CONTENTS
                                                                                 PAGE

MANAGEMENT=S DISCUSSION AND ANALYSIS

    Introduction                                                                       1
    The Library of Congress and Its Mission                                            1
    Strategic Plan                                                                     1
    Brief History                                                                      1
    The Library of Congress Today                                                      3
    Overview of Financial Statements                                                   4
    Key Performance Measures                                                          10
    Major Goals and Accomplishments                                                   11
    Management Control Program, Systems, Controls and Legal Compliance                18
    Stewardship Reporting                                                             19
    Limitations of the Financial Statements                                           19

FINANCIAL STATEMENTS AND NOTES

    Consolidated Balance Sheets                                                       21
    Consolidated Statements of Net Costs                                              22
    Consolidated Statements of Changes in Net Position                                22
    Combined Statements of Budgetary Resources                                        24
    Notes to the Consolidated Financial Statements                                    25

MANAGEMENT REPORT

    Assessment of Condition of Heritage Assets                                        53
    Management Assertion on Controls for the Collections                              53

REPORT OF INDEPENDENT AUDITORS

    Results of the Library of Congress FY 2008 Financial Statements Audit             55
    Independent Auditor’s Report                                                      57




                                                                                            i
                                                                              Management’s Discussion and Analysis



                              THE LIBRARY OF CONGRESS 

                             Management’s Discussion and Analysis 

                                       Fiscal Year Ended September 30, 2008


                                                   Introduction
The Management’s Discussion and Analysis (MDA) is designed to provide a high level overview of the Library:
who we are, what we do, and how we accomplished our mission during fiscal year 2008.


                                The Library of Congress and Its Mission
The Library of Congress, an agency in the legislative branch of the government, is the world's largest and most
comprehensive library, managing 91collections – many of them having unique and irreplaceable items – in more
than 470 languages. It directly serves not only the Congress, but also the entire nation with the most important
commodity of our time: information.

The Library's mission is to make its resources available and useful to the Congress and the American people and to
sustain and preserve a universal collection of knowledge and creativity for future generations.


                                                  Strategic Plan
With the leadership and avid engagement of the Librarian of Congress, the Library developed its current Strategic
Plan through a coordinated and collaborative, institution-wide effort, including Library executives, senior managers,
and key subject matter experts. This effort narrowed the focus of the institution’s goals from 18 organization-based
goals in the previous Strategic Plan, to five discrete institution-wide strategic goals: Content, Customers, Outreach,
Organization and Workforce. Through its strategic plan, the Library of Congress charted a course for achieving
measurable results and codified its accountability to the American public and their elected representatives.

The strategic plan’s goals not only set broad outcomes that each of the ten major organizations relate to, but also
establish broad strategies to be followed and define performance indicators to determine progress toward achieving
the goals and outcomes. Supported by a rigorous annual program performance planning process, and regular
program performance assessment reviews, the strategic plan ensures Library organizations are all working toward
common ends and provides the background guidance for the Library’s annual Congressional Budget Justification
requests.


                                                  Brief History
At the dawn of the 19th century, the American Republic was still little more than a bold experiment. Barely a decade
removed from the establishment of constitutional democracy, our lasting future as a nation was not yet assured and
our national character was only beginning to emerge.

It was in this context that the U.S. Congress created what would become one of the greatest and most distinctly
American institutions. Mindful of the link between an informed people and functional governance, the Congress in
1800 established the Library of Congress by appropriating $5,000 to purchase a collection of 740 books and three
maps.

President Thomas Jefferson would make early and indelible contributions to the growing Library, signing a law in
1802 defining the institution’s roles and functions, creating the first joint congressional committee (the Joint
Committee on the Library) and establishing the position of Librarian of Congress.




                                                                                                                         1
Management’s Discussion and Analysis


    After the British burned the Capitol during the War of 1812, destroying the Library’s collection of some 3,000
    volumes, it was Jefferson who again would help ensure that the Library of Congress would endure as a central
    contributor to American democracy, culture and intellect. Accepting the now-retired president’s offer to
    “recommence” the Library, the Congress in 1815 purchased Jefferson’s 6,487-volume personal collection (then the
    finest in America) at a price of $23,950. It contained books in many languages and on a wide variety of topics,
    reflecting Jefferson’s belief that there was “no subject to which a Member of Congress might not have occasion to
    refer.”

    While its origins were humble, six key milestones in the Library’s early decades significantly expanded its scope
    and reach:

        •	   The establishment of the Law Library in 1832 as the first department of the Library of Congress recalled
             the Library’s origins as a collection of law books to support the legislative work of the Congress. The Law
             Library remains the only source for the Congress for research and reference services in foreign,
             comparative, and international law.

        •	   The Copyright Law of 1870 centralized the nation’s copyright functions in the Library and stipulated that
             two copies of every book, pamphlet, map, print, photograph, and piece of music registered for copyright in
             the United States be deposited in the Library. The law reflected Jefferson’s aspirations for the Library as a
             universal repository of knowledge.

        •	   In 1886, the Congress authorized the first separate Library of Congress building to contain openly
             accessible reading rooms and exhibition space for the general public. In 1897, the Thomas Jefferson
             Building officially opened to the public.

        •	   In 1902, the Congress authorized the Library to sell copies of its cataloging records inexpensively to the
             nation's libraries, thus substantially subsidizing the entire American library system.

        •	   In 1914 the Congress created the Legislative Reference Service (LRS) as a separate entity within the
             Library to provide specialized services to “Congress and committees and Members thereof.” Additional
             laws enhanced its mission in 1946 and 1970, when it was renamed the Congressional Research Service.

        •	   In 1931, the Congress established a program in the Library to create and supply free library materials to
             blind and physically handicapped readers throughout the country.

    In addition, Congress since the mid-1970s has statutorily created 10 programs that have further enhanced the
    Library’s national role.

        •	   American Folklife Center (1976)
        •	   American Television and Radio Archives (1976)
        •	   National Center for the Book (1977)
        •	   National Film Preservation Board (1988)
        •	   National Film Preservation Foundation (1996)
        •	   Cooperative Acquisitions Program Revolving Fund (1997)
        •	   Sound Recording Preservation Board and Foundation (2000)
        •	   Three revolving funds for fee services (2000)
        •	   National Digital Information Infrastructure and Preservation Program (NDIIPP) (2000)
        •	   Digital Collections and Educational Curricula Program (2005)

    Of these programs, the NDIIPP was the most ambitious, as Congress tasked the Library with developing a plan and
    leading an effort to ensure that important digital materials can be preserved for our national information reserve.
    The NDIIPP program demonstrates the foresight of the Congress in its imperative to preserve critical data that
    typically exists in an unstable and transient environment.




2
                                                                                Management’s Discussion and Analysis


                                       The Library of Congress Today
Today, as the Library of Congress advances further into its third century, there is still no more fitting a symbol of its
vision and aspirations than the Library’s 1897 building that bears Jefferson’s name. Constructed as a projection of
American optimism near the turn of the 20th century, the Thomas Jefferson Building is resplendent with iconography
and written inspirations that describe the Library’s past and, more importantly, guide its future.

The gilded Torch of Knowledge surmounts the building, while directly beneath on the underside of the dome is the
mural Human Understanding, embodied by a woman removing the veil of ignorance from her eyes. Below the
dome is the magnificent Main Reading Room, which was the Library’s original means of providing the information
that is critical to an informed citizenry.

As the Library of Congress extends its reach in the modern era, an information revolution is empowering not just
countries and companies, but also individuals in the farthest reaches of the globe. Our mission remains the same,
but it is more important than ever when set against a landscape of dynamism and intense international competition.

In his June 2005 testimony to Congress, Librarian of Congress James H. Billington said: “Libraries are inherently
islands of freedom and antidotes to fanaticism. They are temples of pluralism where books that contradict one
another stand peacefully side by side on the shelves, just as intellectual antagonists work peacefully next to each
other in reading rooms.”

Those words hearken back to the Library’s early days and Thomas Jefferson’s vision of a society wherein the widest
variety of information was readily available to the greatest possible number of people. “I feel … an ardent desire,”
Jefferson said, “to see knowledge so disseminated through the mass of mankind that it may, at length, reach even the
extremes of society; beggars and kings.” (Thomas Jefferson: Reply to the American Philosophical Society, 1808.)

Through its strategic plan, the Library of Congress will be accountable to the American public and their elected
representatives, and measured by the results that are achieved. We seek nothing less than to be ardent champions
furthering the cause of human understanding and wisdom.

Past, present and future, the Library of Congress endeavors to remain the preeminent repository of information on a
global scale, an inspiration to future generations, and a celebrant of achievement–-a Torch of Knowledge that
continues as a shining beacon for all the world.

The Librarian of Congress, appointed by the President with the advice and consent of the Senate, directs the Library.
The Chief Operating Officer manages the day-to-day operations through five service units and an enabling
infrastructure (see organizational chart).

The Library’s programs and activities are primarily funded by four salaries and expenses (S&E) appropriations (the
National and Law Library Services, Copyright administration, Congressional Research Service, and Books for the
Blind and Physically Handicapped), receipts from offsetting collections (Copyright registrations, Cataloging
Distribution Service fees and Law Library Global Legal Information Network (GLIN) receipts), revolving fund
(business-like) income, donations and investment income.




                                                                                                                            3
Management’s Discussion and Analysis



                                 Office of the Inspector General                                          The Librarian of Congress                                                                            Congressional Relations Office


                                                                                                                                                                                                               Office of the General Counsel
                               Office of Opportunity, Inclusiveness                                        Chief Operating Officer
                                         and Compliance
                                                                                                                                                                                                                   Office of Communication

                           Office of Contracts and Grants Management
                                                                                                                                                                                                        Office of Special Events and Public Programs


                                                                                                                                                                                                                     Development Office



              Congressional Research                         Copyright Office                                         Law Library                                                    Library Services                                            Office of Strategic
                     Service                                                                                                                                                                                                                         Initiatives
                                                                                                               •Office of the Law Librarian                        •Office of the Associate Librarian
                                                      •Office of the Register
     •Office of Director
                                                                                                               •Law Library Services Directorate                   •Acquisitions & Bibliographic Access                                  •Office of the Associate Librarian
                                                      •Acquisitions Division
     •American Law
                                                                                                               •Legal Research Directorate                         •Collections & Services                                               •Digital Initiatives
                                                      •Registration & Recordation Program
     •Domestic Social Policy
                                                      •Information & Records Division                                                                              •Partnerships & Outreach Programs                                     •Information Technology Services
     •Foreign Affairs, Defense and Trade
                                                      •Receipt Analysis & Control Division                                                                         •Technology Policy                                                    •National Digital Information
     •Government & Finance                                                                                                                                                                                                               Infrastructure Preservation Program
                                                      •Licensing Division                                                                                          •Administrative Services
     •Resources, Science & Industry                                                                                                                                                                                                      •Teaching with Primary Sources
                                                      •Copyright Royalty Judges                                                                                    •National Audio-Visual Conservation Center
     •Knowledge Services Group
                                                                                                                                                                   •American Folklife Center
     •Office of Finance and Administration
     •Office of Legislative Information
     •Office of Workforce Development
     •Office of Research                                                                          Management Support Services
     •Office of Congressional Affairs and
     Counselor to the Director



                  Office of the Chief Financial Officer                         Human Resources Services                                                                                                Security and Emergency Preparedness
                                                                                                                                              Integrated Support Services
                                                                            •Office of Director
                    •Office of the CFO
                                                                            •Workforce Performance & Development                             •Office of Director                                        •Office of Director
                    •Strategic Planning Office
                                                                            •Workforce Acquisitions                                          •Facility Services                                         •Personnel Security Office
                    •Budget Office
                                                                            •Workforce Management                                            •Health Services                                           •Emergency Preparedness Office
                    •Accounting Operations Office
                                                                            •Worklife Services Center                                        •Logistics Services                                        •Protective Services
                    •Financial Reports Office
                                                                            •Strategic Planning & Automation                                 •Office Systems Services
                    •Disbursing Office
                                                                                                                                             •Safety Services




    Library Services includes the National Library Service for the Blind and Physically Handicapped (within
    Partnerships and Outreach Programs); program costs are reported under the National Library Program.

    The Office of Strategic Initiatives includes Information Technology Services; program costs are reported under the
    National Library Program and infrastructure costs are allocated.



                                                                                Overview of Financial Statements
    For fiscal years 2008 and 2007, the Library has prepared Consolidated Balance Sheets, Consolidated Statements of
    Net Costs, Consolidated Statements of Changes in Net Position, and Combined Statements of Budgetary Resources.

    Consolidated Balance Sheets

    The purpose of the consolidated balance sheet is to provide financial statement users with information about the
    Library’s assets, liabilities, and net position as of September 30, 2008 and 2007. In accordance with generally
    accepted accounting principles for federal government entities, the value of the Library’s collections (our largest
    asset) is not calculated and reported with a monetary value. Instead, the Library reports unit measurement, mission
    and acquisition information in the financial statement notes (see Section 2), and provides other relevant information
    about their use, preservation, security, etc. in supplemental information (see Section 3). The Library’s Net Position
    consists of: (1) the portion of the Library’s appropriations that are unexpended; and (2) the cumulative balances of
    gift, trust, revolving and reimbursable funds.




4
                                                                               Management’s Discussion and Analysis


                        (in millions)                                                              (in millions)
      Assets        FY 2008      FY 2007                  Liabilities and Net Position         FY 2008      FY 2007
Entity Assets     $     544.7 $       537.1    Liabilities Covered by Budgetary Resources     $ 1,304.6 $ 1,227.9
Non-Entity Assets     1,193.8       1,125.3    Liabilities Not Covered by Budgetary Resources       32.7          31.6
                                               Total Liabilities                              $ 1,337.3 $ 1,259.5
                                               Net Position                                        401.2         402.9
Total Assets       $   1,738.5 $    1,662.4    Total Liabilities and Net Position             $ 1,738.5 $ 1,662.4

The Library’s assets total over $1.7 billion for fiscal year 2008 and just under $1.7 billion for fiscal year 2007.
Entity assets increased by $7.6 million during fiscal year 2008. Significant changes include an increase of $19.3
million of property and equipment (predominately software), an increase of $12 million of fund balance with
treasury (predominately more appropriated funds unexpended than in fiscal year 2007) and a decrease of $25.5
million due to unrealized losses in the Library’s non-Treasury investment. Non-entity assets (i.e., funds held and
invested for future distribution to copyright owners) comprise 68.7 percent and 67.7 percent of all assets and total
$1,193.8 million and $1,125.3 million for fiscal years 2008 and 2007, respectively. Non-entity (custodial) assets
increased because current year royalty and interest receipts exceeded prior-year royalty distributions to Copyright
owners. The Library is authorized to invest the royalty funds in U.S. Treasury securities until the funds are
distributed.

The Library’s liabilities total $1,337.3 million and $1,259.5 million for fiscal years 2008 and 2007, respectively,
with custodial and deposit account activities (i.e., funds held for future distribution to copyright owners) as the
major item. The custodial liability during fiscal year 2008, following the same pattern found in the non-entity assets.
Other large liabilities include funds advanced from other governmental agencies for the FEDLINK program and
accounts payable for various operating expenses.

In general, the accompanying Balance Sheets do not include the acquisition and improvement costs of the Library's
buildings and grounds. By law, these buildings and grounds are under the structural and mechanical care of the
Architect of the Capitol.

Consolidated Statements of Net Costs

The purpose of the Consolidated Statements of Net Costs is to provide financial statement users with information
about the costs and earned revenues for the Library’s six programs for the fiscal years ended September 30, 2008
and 2007. In other words, the statements present the net costs of our programs – $663.5 million and $691.8 million
for the fiscal years 2008 and 2007, respectively. Net costs include allocated management support costs (e.g., human
resources, financial services, facility services).




                                                                                                                          5
Management’s Discussion and Analysis


    The net costs for each of the Library’s six programs are:

                                        Consolidated Statement of Net Costs
                                 Fiscal Year 2008 - $ 663.5M               Fiscal Year 2007 - $691.8M

           $450   $425.7 $429.3

           $400

           $350

           $300

           $250

           $200
                                                                          $129.2 $127.7
           $150

           $100
                                                                $45.6                           $45.5 $51.0
            $50                         $23.5 $23.9                                                                       $18.8 $14.3
                                                        $20.9

             $0
                    Nati onal Library    Law L ibrary   Copyrigt Office    Congressioina l    Nat'l Lib Serv for Blind   Re imbu rsin g and
                                                                          Research Se rvice         & Pys Han d          Revolving Fund s



    National Library - With net program costs of $425.7million and $429.3 million for fiscal years 2008 and 2007,
    respectively, National Library is the Library’s largest program and is responsible for the traditional library activities
    of acquisitions, cataloging, research and reference, and preservation.

    National Library manages the following programs and services:
        Acquisitions – Each year the Library acquires more than two million new items in all formats for addition to its
        priceless collections, which are the largest and most wide-ranging of any library in the world. The collections,
        and the information they contain, are the foundation for the many services the Library provides to the Congress
        and the nation.

        Cataloging – The Library produces bibliographic records, standards, and related products for the Library as
        well as for libraries and bibliographic utilities in all fifty states and territories and many other countries.

        Research and Reference – The Library makes available to scholars and other researchers vast information
        resources, many of which are unique, covering almost all formats, subjects, and languages. The Library
        provides reference assistance to researchers and the general public, conducts field research, and promotes the
        preservation of American culture throughout the United States. The Library responds to nearly information
        requests a year from across the nation, including nearly in person in the reading rooms open to the public in
        Washington. In addition, the Library responds to free interlibrary loan requests from across the nation and
        requests for book loans from the Congress each year.

        Online Access Services – The Library provides free online access via the Internet to its automated information
        files, which contain records – to Congressional offices, Federal agencies, libraries, schools, and the public.
        Internet-based systems include three World Wide Web (WWW) services (e.g., THOMAS, www.loc.gov), the
        Library of Congress Online Public Access Catalog (http://catalog.loc.gov), and various file transfer options.
        These Internet-based systems now record nearly.

        American Creativity – The Library manages the nation’s largest, most varied, and most important archival
        collection of American creativity including motion pictures, sound recordings, maps, prints, photographs,
        manuscripts, music, and folklore covering a wide range of ethnic and geographic communities.




6
                                                                               Management’s Discussion and Analysis


    Preservation – The Library manages a continuing program to preserve and extend the life of the diverse
    materials and formats in the Library's collections. The program provides a full range of prospective and
    retrospective preservation treatment for hundreds of thousands of items a year; conducts research into new
    technologies; emphasizes preservation techniques including proper environmental storage and training for
    emergency situations; conserves and preserves materials; and reformats materials to more stable media. The
    Library plays a key role in developing national and international standards that support the work of federal, state,
    and local agencies in preserving the nation's cultural heritage.

    Reading Promotion and Outreach – The Library promotes books, reading, and literacy through the Library's
    Center for the Book, its affiliated centers in 50 states and the District of Columbia, and more than 80 national
    organizational partners. The Library encourages knowledge and use of its collections through other outreach
    programs (cable TV, lectures, publications, conferences and symposia, exhibitions, poetry readings – all
    primarily supported by private funding) and through use of the Library's home page on the World Wide Web.
    The Library also gives surplus books annually to qualified libraries and nonprofit educational institutions
    through its nationwide donation program. Finally, the eighth National Book Festival was held on September 27,
    2008, on the National Mall and had more than 120,000 attendees.

    Digital Initiatives – The Library oversees and coordinates cross-institutional digital initiatives, including the
    NDIIPP, thereby ensuring access over time to a rich body of digital content through the establishment of a
    national network of committed partners, collaborating in a digital preservation architecture with defined roles
    and responsibilities.

Law Library – The Law Library of Congress, with net program costs of $23.5 and $23.9 million for fiscal years
2008 and 2007, respectively, provides direct research service to the Congress in foreign, international, and
comparative law. In addition to Members, Committees of the Congress and the Congressional Research Service, the
Law Library provides officers of the legislative branch, Justices of the Supreme Court and other judges, members of
the Departments of Homeland Security, State and Justice, and other federal agencies with bibliographic and
informational services, background papers, comparative legal studies, legal interpretations, and translations. As its
congressional priorities permit, the Law Library makes its collections and services available to a diverse community
of users, including members of the bench and bar, educational institutions, nongovernmental libraries, legal service
organizations, the foreign diplomatic corps, international organizations, and the general public.

Copyright Office (including the Copyright Royalty Board) – The Copyright Office (COP), with net program
costs of $20.9 and $45.6 million for fiscal years 2008 and 2007, respectively, administers the U.S. copyright laws,
provides copyright policy analysis to the Congress and executive branch agencies, actively promotes international
protection for intellectual property created by U.S. citizens, and provides public information and education on
copyright. Between 2007 and 2008, COP implemented its reengineered operations including :a new information
technology operation; staff realignment and redesigned facilities, with a resulting decrease in net operating costs. In
addition to implementing a reengineered operation, in fiscal year 2008, the COP registered nearly 233,000 claims to
copyright: transferred more than half a million works to the Library; recorded 11,341 documents containing more
than 333,000 titles, logged more than 19 million page views on its web site, and responded to more than 323,000 in-
person, telephone and e-mail requests for information. The Copyright Royalty Board (CRB), composed of three
Copyright Royalty Judges and their staff under the aegis of the Librarian of Congress distributes hundreds of
millions of dollars in royalties that are collected under various compulsory license provisions of the copyright law,
and adjusts the royalty rates of these license provisions. Registration fees and authorized reductions from royalty
receipts fund almost half of the COP. Copies of works received through the copyright system form the core of the
Library’s immense Americana collections, which provide the primary record of American creativity.

Congressional Research Service – The Congressional Research Service (CRS), with net program costs of $129.2
and $127.7 million for fiscal years 2008 and 2007, respectively, provides non-partisan analytical research and
information services to all Members and committees of the Congress. CRS assists the Congress with its
deliberations and legislative decisions by providing objective, authoritative, non-partisan, and confidential research
and analysis. Serving Congress exclusively, CRS experts work alongside the Congress at all stages of the legislative
process and provide integrated and interdisciplinary analysis and insights in all areas of policy interest. CRS support
takes the form of reports, tailored confidential memoranda, individual consultations and briefings, and formal
seminars. In 2008, CRS delivered more than 871,000 research responses and services.


                                                                                                                           7
Management’s Discussion and Analysis



    National Library Service for the Blind and Physically Handicapped (NLS/BPH) – The NLS/BPH, which is part
    of Library Services, manages a free national reading program for blind and physically handicapped people ­
    circulating nearly 26 million items a year at no cost to users. This program consists of three segments:

        1.	 The Library of Congress selects and produces full-length books and magazines in Braille and on recorded
            disc and cassette and contracts for the production of talking book machines. The NLS/BPH’s fiscal years
            2008 and 2007 net program costs for this segment were $45.5 and $51.0 million, respectively.

        2.	 A cooperating network of regional and subregional (local) libraries distribute the machines and library
            materials provided by the Library of Congress.

        3.	 The U.S. Postal Service receives an appropriation to support postage-free mail for magazines, books, and
            machines, which are sent directly to readers. Reading materials (books and magazines) and playback
            machines are sent to a total readership of more than 822 thousand audio and Braille readers registered
            individually, in addition to over 226,000 eligible individuals located in more than 32,000 institutions.

    Revolving and Reimbursable Funds - Under the authority of 2 U.S.C. 182, the Library operates the Cooperative
    Acquisitions Program revolving fund, the revolving fund for duplication services associated with the Packard
    Campus for Audio-Visual Conservation, the revolving fund for gift shop, decimal classification, photo duplication,
    special events and public programs and related services, and the revolving fund for the Federal Library and
    Information Network (FEDLINK) program and Federal Research program. 2 U.S.C. 182 was amended in fiscal
    year 2003 to authorize the Library’s special events and programs activities under the revolving fund statute.
    Through these activities, the Library is able to further its programs dealing with the acquisition of library materials,
    reader and reference services, and support for public programs. The Library also provides reimbursable accounting
    services for four legislative agencies under cross-servicing agreements (i.e., the Congressional Budget Office, the
    Office of Compliance, the Abraham Lincoln Bicentennial Commission, and the Open World Leadership Center).

    After reflecting earned revenues of $78.8 and $76.6 million in fiscal years 2008 and 2007, respectively, 

    reimbursable and revolving fund net program costs totaled $18.8 and $14.3 million, respectively. The net program

    costs were the result of the elimination of $7.6 and $6.7 million of intra-Library net revenues, $9.1 and $7.0 million 

    in allocated administrative overhead, and $1.8 million for both fiscal years in imputed inter-governmental costs (e.g., 

    employee benefits) not recovered by fees charged by the revolving funds for fiscal years 2008 and 2007, 

    respectively. 


    General descriptions of major revolving fund activities are:


        Cooperative Acquisitions Program - The Cooperative Acquisitions Program, which is operated by the
        Library’s six overseas field offices, acquires foreign publications and research materials on behalf of
        participating institutions on a cost-recovery basis. Earned revenues were $3.1 million for fiscal year 2008 and
        $3.0 million for fiscal year 2007.

        Duplication Services – Duplication Services provides preservation services for the Library's audio and visual
        collections, and products are also produced for sale to the general public. Earned revenues for fiscal years 2008
        and 2007 were $0.3 million and $0.4 million, respectively, of which $0.1 million and $0.2 million were for
        intra-Library transactions, which were eliminated for both years in the consolidated statements.

        Gift Shop, Decimal Classification, Document Reproduction and Microfilm Services, Special Events and
        Programs and related services – This revolving fund provides for the operation of a gift shop or other sales of
        items associated with collections, exhibits, performances, and special events of the Library of Congress;
        decimal classification development services; the preservation and microfilming services for the Library's
        collections and reproduction services to other libraries, research institutions, government agencies, and
        individuals in the United States and abroad; and the hosting of special events and programs by corporate and
        non-profit entities that support the Library’s mission. Earned revenues were $6.9 million and $6.1 million in
        fiscal years 2008 and 2007, respectively, and intra-Library transactions of $2.4 million and $1.1 million were
        eliminated during consolidation.


8
                                                                               Management’s Discussion and Analysis



    The FEDLINK program and Federal Research program (FRP) – FEDLINK serves federal libraries and
    information centers as their purchasing, training and resource-sharing consortium. As the FLICC business
    subsidiary, the program provides cost effective access to an array of automated information and retrieval, print
    serials, books, electronic publications and preservation services. FEDLINK contracts with more than 130 major
    vendors to provide services to Federal offices participating in the program, saving the offices an in cost
    avoidance benefits and in vendor volume discounts. The Federal Research Program provides customized
    research services that the Library is uniquely able to perform as a result of its collections and the subject and
    language expertise of its staff. A popular FRP product, available on-line via the Library's home page, is the
    country study series of books. In fiscal years 2008 and 2007, earned revenues were $71.4 and $68.9 million,
    respectively, and intra-Library transactions of $1.3 million and $1.1 million were eliminated during
    consolidation.

Consolidated Statements of Changes in Net Position

The purpose of the Consolidated Statements of Changes in Net Position is to provide financial statement users with
information about the Library’s financing sources and the components of the changes in net position. The Library’s
financing sources totaled $650.9 million and $721.1million for the fiscal years ended September 30, 2008 and 2007,
respectively.

                    Consolidated Statements of Changes in Net Position
                                  Total Financing Sources

                       Fiscal Year 2008- $650.9M           Fisca l Year 2007 - $721.1M


          $600     $546.4 $574.3

          $500

          $400

          $300

          $200
                                                              $81.3 $78.4
                                         $45.4 $54.1
          $100
                                                                                            $14.3
                                                                                   -$22.2
            $0

         -$100
                  Appropriations         Donatio ns       Imputed Fin ancing        Other Non
                      Used                                                      Exchang e Revenue


The major source of the Library’s funding is from Congressional appropriations for five programs: National Library,
Law Library, Copyright Office, Congressional Research Service, and National Library Service for the Blind and
Physically Handicapped. Appropriations used during the fiscal years ended September 30, 2008 and 2007 totaled
$546.4 and $574.3 million or 84 and 80 percent for fiscal years 2008 and 2007, respectively, of all financing. Along
with appropriations made directly to the Library, other government agencies (i.e., the Architect of the Capitol, the
Office of Personnel Management [OPM], Government Printing Office) used Congressional appropriations and other
financing sources to provide support for the Library’s programs totaling an estimated $81.3 and $78.4 million
(imputed financing) for fiscal years 2008 and 2007, respectively. The support provided included structural care and
maintenance of the Library’s buildings and grounds ($51.6 million and $40.6 million), employee benefits ($28.6
million and $31.6 million), acquisitions exchange services ($1.1 million and $0.6 million) and legal claims ($0.1
million for fiscal year 2007). Other non-exchange revenues are negative and positive for fiscal years 2008 and 2007
primarily due to the unrealized loss or gains on non-treasury investments, respectively.




                                                                                                                        9
Management’s Discussion and Analysis


     The Library’s net position decreased by $1.7 million during fiscal year 2008, primarily due to the aforementioned
     unrealized loss on non-Treasury investments.

     Combined Statements of Budgetary Resources

     The Combined Statements of Budgetary Resources and the related disclosures provide information about how
     budgetary resources were made available, as well as their status at the end of the period. The Budgetary Resources
     section of the statement presents the total budgetary resources available to the Library. The Status of Budgetary
     Resources section of the statement presents information about the status of budgetary resources at the end of the
     period. Finally, the Outlays section presents the total outlays of the Library and relates obligations incurred to total
     outlays.

     The Library’s budgetary resources were $2.2 billion for fiscal years 2008 and 2007, of which $0.6 billion were from
     appropriated funds and $1.6 billion were from non-appropriated funds for both fiscal years. Total outlays of $744.9
     and $823.1 million were incurred with the outlays of appropriated funds ($542.1million and $575.5 million)
     combined with outlays of the non-appropriated funds ($202.8 million and $247.6 million) in fiscal years 2008 and
     2007. The decrease in outlays is largely a result aforementioned increase in unexpended appropriations and net
     increase in royalty receipts during fiscal year 2008.


                                               Key Performance Measures
     Since 2004, the Library's Internet transactions have grown dramatically from 3.4 billion to 5.2 billion in fiscal year
     2008. Internet-based systems include major World Wide Web services (e.g., THOMAS, LC-Web) and various file
     transfer options. This rapid growth will almost certainly continue to increase because the Library has put on-line
     items of American history as the core of a National Digital Library and operates an educational Web site for families
     called “America’s Library.” (2008 will be the last year for the Internet count, due to page views replacing “hits.”
     Page views has been determined to be a more accurate and practical way of measuring Web content usage.)

     Other noteworthy workloads include the following:

         •	   The number of Congressional requests and services provided by CRS decreased during fiscal year 2007 due
              to the introduction of the new Product Search capability on the CRS web site, which allowed clients to find
              the desired research products without returning to the Home Page. However, during fiscal year 2008 data
              reflects increasing use of the web site.

         •	   Copyright office registrations were 293,471 less in fiscal year 2008 than in fiscal year 2007. Fiscal year
              2008 was the first year of the new electronic Copyright system and required complete retraining of all staff
              members. Of the 560,000 claims received, 232,907 were registered. In fiscal year 2009, there should be an
              improvement in production as more staff members complete their training. The number of copyright direct
              inquiries (in-person, phone, and correspondence) was 58,376 less in 2008 than in 2004. Decreases were
              principally due to the growing public use of the web site for information on copyright law, the Copyright
              Office’s services, and Copyright Office forms and publications.

         •	   The number of information requests handled by reference staff decreased by 10.73 percent from 682
              thousand in 2004 to 609 thousand in 2008, while the number of Internet transactions increased from 3.4
              billion to 5.2 billion. In addition, 1.1 million non-digital items circulated, compared to 1.389 million in
              2004. This trend reflects greater use of the Library’s online resources.

         •	   The number of items preserved, treated, and deacidified increased by 3.6 million from 2004 to 2008
              primarily due to an increase in the number of pages reformatted or deacidified.




10
                                                                                                                    Management’s Discussion and Analysis




                                                                     THE LIBRARY OF CONGRESS
                                           COMPARISON OF APPROPRIATIONS, STAFF, AND WORKLOAD STATISTICS
                                                                For the Fiscal years 2004, 2005, 2006, 2007, and 2008
                                                                                                                                                        CHANGE              %
                                                                     FY 2004         FY 2005         FY 2006            FY 2007         FY 2008
                                                                                                                                                       2004 – 2008        CHANGE
LIBRARY APPROPRIATIONS - ACTUAL                                     $559,299,548    $584,870,304    $603,622,800      $600,417,000     $613,496,414     $54,196,866            9.69%
FULL-TIME EQUIVALENT (FTE) POSITIONS (Appropriated)                        4,056           3,937           4,302             3,679            4,191             135            3.32%
WORKLOAD STATISTICS:
Unprocessed Library Arrearages                                        19,313,015      15,983,986      15,901,826         16,786,643      17,401,490      (1,911,525)          -9.90%
CRS - Requests & Services Provided Congress                              899,284         906,445         933,430           822,697          871,287         (27,997)          -3.11%
Loans of Collections to Congress                                          29,067          29,646          29,275            26,003           25,119          (3,948)           -13.58
Copyright Claims Registered                                              661,469         531,720         520,906           526,378          232,907        (428,562)         -64.80%
Copyright Direct inquires (in person, phone, correspondence)             381,845         362,263         338,831           304,688          323,469         (58,376)         -15.29%
Services to the Blind & Physically Handicapped (BPH) –
                                                                         799,718         793,891         811,015           822,596          822,596          22,878            2.86%
Readership
BPH - Books & Magazines; Total Circulated                             23,833,430      24,677,023      26,296,198         25,557,931      25,553,931       1,720,501         7.22%
BPH - New Braille & Audio Books & Magazines Titles                         4,994           4,275           4,605             4,594            3,325         (1,669)       …...-33.42%
Print Materials Cataloged                                                294,510         312,818         346,182           363,064          350,631          56,121           19.06%
National Coordinated Cataloging Operation (NACO) - LC
                                                                         101,081         101,829         127,672           116,371           91,414          (9,667)           9.56%
Contribution
National Coordinated Cataloging Operation - Outside
                                                                         156,098         161,230         185,184           194,565          213,394          57,296           36.71%
Contribution
Exhibits, Displays, & Publications (Funded by Appropriations)                  23              27              32                 29              12            (11)         -47.83%
Regular Tours (Participants)                                             109,252         140,847         159,604           163,467          202,904          93,652           85.72%
Reference Service                                                        682,264         685,408         686,923           682,672          609,086         (73,178)         -10.73%
Main Reading Room & Five Other Reading Rooms Hours Per
                                                                               65              65              65                 65              65                  0             0%
Week
Items Circulated                                                       1,389,161       1,226,067       1,049,230          1,312,489       1,131,411        (257,750)         -18.55%
Preservation Treatment - Original Format                               2,648,334       2,754,425       4,058,707          7,489,491       6,294,000       3,645,666          137.66%
Mainframe Computer Transactions                                      103,463,022      50,730,911         600,000           300,000                 -                                0%
Integrated Library System Input/Update Transactions                   98,312,132     103,644,698     104,087,835        117,329,910     117,329,910      19,017,778           19.34%
Machine Readable Cataloging (MARC) Records                            35,360,828      36,873,893      38,527,975         40,141,678      40,141,678       4,780,850           13.52%
Internet Transactions (i.e., LOCIS, MARVEL, World Wide Web,
                                                                    3,360,481,609   3,845,481,430   4,594,485,103    4,931,310,401     5,177,875,900   1,817,394,291       54.08%%
and THOMAS public transactions)




                                                                Major Goals and Accomplishments

              The following section presents the significant annual strategies and accomplishments for fiscal 2008 as they relate to
              the goals of the Library of Congress Strategic Plan 2008-2013. The organizational annual strategies and
              accomplishments that follow are cited with the strategic plan goal that is most applicable. For each annual strategy,
              the responsible organization is named followed by the text of the annual strategy and its related accomplishment(s).


              Strategic Plan Goal: Content – Expand and preserve in accessible form a unified and universal body of
              knowledge and creativity.

                    Annual Strategy: Copyright Office (COP) – Sustain the highest standards of copyright regulatory and
                    administrative stewardship on the nation's behalf.

                            Accomplishments: COP advised Congress and government agencies, participated in copyright-related
                            litigation where the government has an interest, kept regulations up to date, and carried out the
                            requirements of the law regarding registration, recordation, and providing information on the Copyright
                            Office and its services.




                                                                                                                                                                          11 

Management’s Discussion and Analysis


           COP kept regulations up-to-date, most of which involved various statutory licenses, with notices of
           proposed rulemaking on recording notices of termination, group registration, and other topics. These
           regulations clarified a number of issues related to licenses so that the appropriate royalties were collected
           for distribution to copyright owners.

           The Register also issued two reviews of Copyright Royalty Judges' determinations. In one she found the
           judges should have established separate values for section 114 and 112 licenses. In the second review, she
           clarified the division of authority between the Judges and the Register of Copyrights under the Section 115
           statutory license.

       Annual Strategy: COP – Increase other countries' adherence to international copyright treaties and agreements
       with intellectual property provisions.

           Accomplishment: COP successfully assisted U.S. government agencies in their international and bilateral
           negotiations to hold foreign governments accountable for enforcement of international intellectual property
           treaties and national copyright laws.

       Annual Strategy: COP – Lead in the provision of expert assistance on digital technology and other issues in
       light of fundamental copyright principles and the requirements of the law.

           Accomplishment: COP completed work on various issues related to cable, satellite, and music licensing;
           technology for identifying orphan works, and web casting.

       Annual Strategy: COP – Improve the Library's ability to rely upon the Copyright Office for copyrighted
       works the Library wants for its collections.

           Accomplishment: COP focused resources on developing, testing, and implementing “Acquire Deposit”
           functions in the electronic Copyright Office (eCO) system. Service to Library as a customer is not yet at an
           optimum level, primarily because of a large number of unprocessed Library requests.

       Annual Strategy: COP – Ensure knowledge and creativity are sustained for future generations through active
       encouragement of deposit of completed works

           Accomplishment: In accordance with provisions of 17 U.S.C. sec. 407, COP received demanded materials
           worth nearly $540,000. Total transfer of demanded and voluntary deposit copies was over 362,000 pieces
           valued at $9.4 million. COP granted special relief to one publisher by replacing the depository requirement
           with online access to the publisher's 115 scholarly journals.

       Annual Strategy: COP – Broaden publishers' understanding of mandatory deposit provisions and their
       obligations under those provisions.

           Accomplishments: COP staff completed 18 publisher reviews, 50% more than targeted for the entire year.
           COP also educated four publishers and closed two cases referred to the Department of Justice after those
           publishers complied with the deposit demands.

       Annual Strategy: COP – Increase the acquisition, through registration and mandatory deposit, of works
       created and disseminated digitally or online in a variety of formats.

           Accomplishment: Library working groups met regularly with COP. Legislative and regulatory changes
           will be needed, but specific requirements are pending determination of the Library's needs and how the
           current law affects them.

       Annual Strategy: COP – Improve the acquisition, through registration and mandatory deposit, of works
       created and disseminated in analog formats.




12
                                                                        Management’s Discussion and Analysis


    Accomplishment: COP transferred over half a million copies of registered works and mandatory deposit
    copies valued at more than $23.7 million to the Library. However, this number is down significantly
    compared to fiscal 2007 because of registration processing issues attendant on the implementation of
    reengineered processes and a new IT system.

Annual Strategy: Congressional Research Service (CRS) – Use multi-disciplinary issue teams to articulate
issues and create research agenda.

    Accomplishment: CRS used multi-disciplinary teams to articulate policy issues for its research agenda. 

    In fiscal 2008, 55% of issue teams included experts from at least four of CRS’s six research divisions. This

    diversity helped CRS bring the full range of expertise to issues addressed by Congress. 


Annual Strategy: Law Library of Congress (LAW) – Expand the amount of digital content in the Global Legal
Information Network (GLIN) through the addition of new countries and additional legal materials for existing
member countries.

    Accomplishment: LAW expanded the GLIN database by incorporating three new countries: Dominican
    Republic, Indonesia, and United Kingdom. LAW entered approximately 7,800 foreign laws into the
    database during fiscal 2008. Another 882 publications were summarized and entered. LAW developed
    metadata for the special hearings collection and began adding congressional hearings to GLIN. LAW also
    analyzed treaties in order to develop a template and pilot project to begin adding them to the database.

Annual Strategy: LAW – Lead development of standards and best practices for shared content stewardship

    Accomplishment: LAW promoted GLIN as an international standard for digital legal information systems
    at two international meetings including a presentation at the National Assembly of Costa Rica in February
    and a presentation at the meeting of the International Federation of Library Associations in Canada in
    August.

Annual Strategy: LAW – Increase number of digitized legal collections

    Accomplishment: LAW digitized six titles about John Adams and nineteen titles on Abraham Lincoln
    were identified to be digitized. LAW’s annual collections acquisition budget was not sufficiently funded to
    procure all the required items; however, available funds were fully spent.

Annual Strategy: LAW – Preserve all primary source materials for all jurisdictions in the Law Library
collection.

    Accomplishment: The Congressional and Supreme Court documents collection was well-maintained and
    bound on a regular schedule. LAW received 25,715 government documents during the year, 20,700 were
    retained for the collections, including 14,790 congressional bills, reports and hearings, 490 executive
    branch publications, and 5,420 Supreme Court filings and transcripts. More than 1.8 million pages of
    official gazettes were sent for microfilming, 242 thousand pages of gazettes were sent for digitizing; and
    13,828 volumes were sent for binding.

Annual Strategy: LAW – Sustain and increase the effectiveness of 5 primary traditional acquisition channels
in order to obtain a universal, multinational and multi-formatted collection of legal materials of worldwide
research significance.

    Accomplishment: LAW’s efforts to improve the universal collection concentrated on collecting core
    primary legal sources. Among the more than 50,000 volumes added to the collections, receipt highlights
    included the first consolidated code from Bangladesh, as well as new/consolidated codes from Trinidad and
    Tobago and from Saint Lucia.




                                                                                                                    13
Management’s Discussion and Analysis


       Annual Strategy: LAW – Secure the collections during all phases of the collections Life-cycle using
       bibliographic inventory physical and preservation controls in accordance with the Library's collection security
       plan.

           Accomplishment: Preparations to move rare legal materials to a physically secured and environmentally
           controlled environment could not be undertaken as planned due to unavailability of appropriated funds to
           construct the Madison Building third floor vault. As a result, the protection of almost half of LAW’s rare
           items did not meet the requirements of the Library’s security plan. However, LAW was able to identify,
           prioritize, and make preliminary preparations for moving special material to the space allocated it in Ft.
           Meade modules III and IV. Additionally, LAW transferred 187,209 volumes to Ft. Meade module II.

       Annual Strategy: Library Services (LS) – Mitigate risks to the Library's collections through continuous
       preservation and security. Activities planned will ensure preservation and security of collection items.

           Accomplishment: Renovation of the Library's Top Treasures Vault was successfully completed. New and
           updated HVAC and security systems will guarantee the preservation and security of the Library's Top
           Treasures. LS completed the evaluation and maintenance of all top treasure anoxic encasements and
           completed the design, construction, and installation of the Waldseemüller 1507 World Map, now on
           permanent public display. The climate control program (Climate Notebook) continues to monitor the
           Library’s storage environments, while the web-based collection storage information system (Myclimatedata)
           completed beta testing.

       Annual Strategy: LS – Collect and preserve the record of America's creativity and the world's knowledge.
       Activities planned will enhance both the breadth and relevance of the collections.

           Accomplishment: LS divisions collected materials within the parameters of the Collections Policy
           Statements and Collection Overview Statements, adding to the national cultural patrimony, by purchase,
           gift, or transfer. This year the Library purchased 1,172,822 pieces published in 205 countries or
           jurisdictions for the collections, using the LAW and GENPAC (Books for the General Collections)
           appropriations. The transfer of the motion picture and recorded sound collections to the National Audio-
           Visual Conservation Center (NAVCC) and the development and implementation of the audiovisual
           materials preservation laboratory, place the Library at the forefront in collecting and preserving the nation's
           audiovisual materials.

       Annual Strategy: Office of Security and Emergency Preparedness (OSEP) – Reduce vulnerabilities to the loss
       and damage of library collections and other assets.

           Accomplishment: OSEP completed several major projects, including: (1) lobby screening equipment and
           video coverage of the Great Hall's first floor in support of the Library of Congress Experience exhibit in the
           Jefferson Building, (2) security protocols for the exhibit areas during the construction phase to safeguard
           priceless treasures including the Waldseemueller Map and the Thomas Jefferson Book Collection; (3)
           safeguarding controls for the European Reading Room, the Rare Books and Special Collections Division's
           reconfigured space, and the Lincoln exhibit scheduled to open in February 2009; (4) lock upgrades on
           twenty-two cold storage vaults at the Packard Campus of the NAVCC; (5) a master key system for Fort
           Meade Modules 3 and 4 and integration of Modules 1 and 2 in the campus-wide project. OSEP also
           chaired the Library's Collections Security Oversight Committee (CSOC) and collaborated with senior staff
           members from the Library's service units to execute the security awareness campaign and completed a third
           round of Site Assistance Visits to all Library divisions. The CSOC also began conducting a series of Focus
           Group sessions with front-line supervisors, librarians and other professional staff, and technicians and other
           support staff to explore additional avenues to solicit staff members’ ideas and strengthen their commitment
           to collections security.

       Annual Strategy: Office of Strategic Initiatives (OSI) – Enable expansion of the Library's collection while
       building a national collaborative partnership network for the nation




14
                                                                             Management’s Discussion and Analysis


        Accomplishment: Through use of current and developing technologies and expertise, OSI continued to
        work with Library service units and external partnership to enable the significant growth of the Library's
        digital content, both born digital and converted.


Strategic Plan Goal: Customers – Improve our internal and external customers’ experiences in seamlessly finding
and using Library resources.

    Annual Strategy: COP – Assist congressional and government understanding of domestic issues affecting
    compliance with copyright law.

        Accomplishment: COP assisted Congress to understand and legislate or act upon such domestic issues as:
        orphan works (copyrighted works for which the owner cannot be located), vessel hull design, webcaster
        settlement, and to enhance remedies for violations if intellectual property laws.

    Annual Strategy: COP – Provide products and services that meet the needs of owners and users of
    copyrighted and other protected works.

        Accomplishment: COP educated the public about its new processes, especially e-Service, through which
        more than 40% of claims were being submitted at the end of the year.

    Annual Strategy: COP – Improve customer satisfaction with Copyright Office services.

        Accomplishment: COP made significant progress in decreasing the backlog of uningested claims, tagging,
        and quality assurance and reached higher weekly closure levels. However, the rest of the registration
        process shows significantly increased processing times.

    Annual Strategy: COP – Establish and expand online services to the public, including improving overall
    processing times.

        Accomplishment: COP’s key targets relating to registration and recordation processing times were not
        met this year. Reengineering implementation and IT system startup challenges resulted in significantly
        slower processing for fiscal 2008. Increase of online submissions through e-Service is one solution: e-
        Service submissions increased to over 45% after public introduction in July, averaging 17% across the
        entire fiscal year. Additional steps to address the problem of slower processing included: establishing
        performance requirements for specialists, improving the eCO (electronic Copyright Office) system
        response and usability, and moving specialists to full quality assurance independence.

    Annual Strategy: CRS – Meet needs of Congress for objective, nonpartisan research in each active policy area.

        Accomplishment: CRS met needs for objective, nonpartisan research in each policy area of active interest
        to Congress. CRS ensured the relevance of its work by validating its research agenda with congressional
        leadership; aligning its research products with policy issues on the agenda; supporting all of those policy
        issues with research products; and by making its experts available to Congress following major,
        unanticipated events.

    Annual Strategy: Integrated Support Services (ISS) – Products and Services: support Library programs by
    providing ISS services efficiently, cost-effectively, and in accordance with ISS standards of customer service to
    meet customer needs.

        Accomplishment: ISS assisted its customers’ day-to-day business operations by completing 28 facility
        projects, including the Flexible Exhibit Space that will house the Abraham Lincoln Bicentennial Exhibit,
        decreasing the time needed to close FAST requests for facility-related service, and increasing the index rate
        of customer satisfaction with FAST service from 4.49 to 4.58 (out of 5). ISS helped improve preservation
        of (and access to) the Library's motion picture collections by supporting the timely opening of the new
        NAVCC facility and closure Wright Patterson Air Force Base facility. ISS also provided a clinical


                                                                                                                        15
Management’s Discussion and Analysis


             employee health program by providing acute and emergency care to 6,721 staff, contractors, and Library
             visitors, and responding to 78 medical emergencies, 37 of which were life-threatening. ISS improved the
             Library's ability to assure positive control and annual reporting of fixed assets (value over $25K) and
             accountable assets (value under $25K) by working with the Office of the Chief Financial Officer to update
             and re-issue LCR 1615-1 and publishing OCFO Directive 08-10 “Guidelines for Accounting for
             Capitalized Property and Depreciation”

         Annual Strategy: LAW – Create content to meet the evolving expectations of customers: Congress, courts,
         the private sector and improve existing Law Library products and services including new digital special
         collections of legal materials

             Accomplishments: In response to the HBO mini-series on John Adams, LAW digitized its holdings about
             the trial commonly referred to as the Boston Massacre. LAW’s staff drafted and contributed summaries of
             U.S. and Bangladesh legal and legislative developments for the web-based World Law Bulletin and Global
             Legal Monitor. In response to interest in the pending Supreme Court case (Heller v. District of Columbia),
             LAW initiated a web-based article analyzing Second Amendment "right to bear arms" issues and completed
             and posted to the web site a report discussing the Second Amendment issues of gun ownership. LAW
             reviewed OSI’s quarterly traffic reports to determine how, and from where, users were accessing LAW’s
             website. LAW also prepared the agreement for implementing the Law Library/Thompson West project to
             digitize approximately 400 items.

         Annual Strategy: LAW – Improve access to the Law Library print collection by completing project to convert
         it to Class K.

             Accomplishment: LAW completed the classification of 17,755 titles (37,643 volumes) during the fiscal
             year. The revised estimate for completing classification of the entire 800,000 volumes into the K
             classification is 2029.


     Strategic Plan Goal: Outreach – increase awareness of the value and utility of the Library.

         Annual Strategy: COP – Promote public respect for copyright principles, compliance with copyright laws, and
         use of copyright services.

             Accomplishment: COP introduced the e-Service system and increased its capacity for registering claims
             more conveniently and rapidly. COP provided information to thousands of people about the copyright law
             and its implications, how to register, and how to use various Copyright Office services.

         Annual Strategy: COP – Reach more people in selected audiences with a message on the importance of
         copyright and related laws and principles as a means of promoting creativity.

             Accomplishments: COP coordinated the update of many publications and web pages to inform the public
             about copyright registration procedures using electronic filing via eCO, e-Service, and the use of the new
             bar-coded form that replaces previous registration forms. COP joined the Library-wide initiative through
             GovDelivery, a service permitting customers to subscribe to a wide variety of LC websites and updates via
             email and RSS. These developments specifically reach those customers who want the least expensive way
             to register and who prefer technology-driven services and interaction.

         Annual Strategy: COP – Increase the number of media, and frequency of their use, to convey copyright
         principles.

             Accomplishment: COP improved website content especially for eCO-related activities, and completed
             95% of design milestones for graphics display and timeline.

         Annual Strategy: LAW – Provide products and services that meet or exceed accepted standards and best
         practices for authoritativeness and reliability.


16
                                                                              Management’s Discussion and Analysis



        Accomplishment: LAW added legal research guides for three countries to the website and completed a
        Legal Research Guide on the Second Amendment. LAW also examined and initiated guidance on
        additional standards for its online reports on current legal topics.

    Annual Strategy: LAW – Create and deliver timely content, products, services, and experiences that meet the
    evolving customer expectations and allow them to customize according to their needs.

        Accomplishment: LAW converted both the World Law Bulletin (WLB) and the Global Legal Monitor
        (GLM) to news services using RSS. LAW also implemented a policy to respond immediately to requestors
        and initiated on-demand delivery of documents in response to congressional inquires. Additionally, LAW
        partnered with LS in completing plans to develop online tutorials within the THOMAS website, focusing
        on the availability of hearings and how to search for bill summary and status.

    Annual Strategy: LS – Deepen the general understanding of American cultural, intellectual, and social life and
    add interpretive and educational value to the Library's collections.

        Accomplishment: The American Folklife Center and LS divisions produced more than 125 programs,
        exhibitions, publications, and products to enhance awareness of the Library to all of the Library's patrons
        and visitors. Programs included: concerts and film screenings, scholarly lectures and conferences and the
        popular National Book Festival, held on the National Mall. LS developed and opened three new exhibits
        showcasing the Library and its collections for tourists and visitors to the Library as part of the Library of
        Congress Experience.

    Annual Strategy: OSI – Enhance access to, and use of, the Library's collections and services.

        Accomplishment: In fiscal 2008, OSI staff provided professional development to teachers from 74
        Congressional Districts. In addition, Teaching with Primary Resources (TPS) Educational Consortium
        members, who serve educational communities in 32 states, helped teachers in 79 Congressional Districts.
        Staff conducted 97 institutes, workshops, and presentations for 3,679 teachers both at the Library and at
        outside venues. TPS partners conducted 566 professional development events for 4,741 teachers. These
        events focused on using the Library’s digitized primary sources to create instruction that builds student
        literacy, content knowledge, and critical thinking skills


Strategic Plan Goal: Organization – increase Library-wide synergies and flexibilities to continuously improve
quality and efficiency of delivery of products and services.

    Annual Strategy: COP – Support business processes with effective information technology systems and
    infrastructure to deliver public services more effectively and efficiently, extracting records from legacy systems
    into the new integrated system.

        Accomplishment: COP successfully completed efforts in system administration, knowledge transfer from
        contractor, and plans to upgrade to most recent Siebel version. However, key functionalities, change
        requests, and usability issues are still in process of being addressed.

    Annual Strategy: ISS – Apply information technology to improve access to ISS services and provide data to
    support Library decision-making.

        Accomplishment: ISS completed security testing and production of the Computer-Aided Facility
        Management System (for space management) and Medical Information Management System for the health
        services program. ISS also initiated planning, and created the charter for, the Facility & Asset Management
        Enterprise system (FAME).

    Annual Strategy: LAW – Create seamless access to LAW's resources online & onsite.




                                                                                                                         17
Management’s Discussion and Analysis


              Accomplishment: LAW’s GLIN system usage increased in fiscal 2008 with an 872 percent jump in the
              number of system visits. LAW’s analysis of the existing web site contributed to developing a requirements
              document for the Multinational Collections Database interface and searching system. Temporary systems
              programming corrections were implemented pending development and release of the new system.

         Annual Strategy: OSI – Redefine the technology infrastructure to include information stewardship.

              Accomplishment: During fiscal 2008 OSI completed significant changes to the Library’s enterprise
              architecture and in the design and standardization of documentation of networks and data centers. The
              efficiency and effectiveness of the digital infrastructure’s internal operating processes were improved to
              ensure a strong foundation for delivery of automated business services, and to maintain a successful
              support environment with adequate staffing levels, effective procedures, and reliable tools.


     Strategic Plan Goal: Workforce Cultivate a talented diverse community of innovators devoted to public service.

              Annual Strategy: Human Resources Services (HRS) – Deliver Strategic Training and Development. The
              Library offers a robust and diverse training curriculum that supports the development of staff, supervisors,
              and managers.

                       Accomplishment: HRS continues to meet and make substantial progress in meeting the
                       performance target set forth for improving the understanding of Human Resources processes to
                       better serve and support the Library. The performance targets relate directly to the Workforce and
                       Organization goals of the Library’s Strategic Plan and specifically the strategy to foster a learning
                       environment, improve communication/planning/decision making within and among service and
                       support units, and collaborate with forward-thinking human resources networks to incorporate best
                       practices. Among the highlights of these efforts are the continued successful implementation of
                       supervisory training via the Essential Supervisory Skills course and other courses available
                       through the online learning center. Additional efforts continue to focus on the Library’s Career
                       Development Program which was successfully piloted in fiscal 2008.


                Management Control Program, Systems, Controls and Legal Compliance

     The Library has a management control program (MCP) that requires annual risk (vulnerability) assessments and
     periodic detailed reviews of internal controls based on the results of the vulnerability assessments. The MCP is
     designed to ensure that: (1) obligations and costs comply with applicable law; (2) assets are safeguarded against
     waste, loss, unauthorized use or misappropriation; (3) revenues and expenditures are properly accounted; and (4)
     program activities are carried out in the most efficient, effective, and economical manner possible.

     During fiscal year 2008, Library staff performed vulnerability assessments on all of the identified financial and non­
     financial modules and assigned, based on an established scoring system, a high, medium or low risk to the modules.
     Then, based on risk and scheduling, Library staff performed 24 detailed control reviews in fiscal year 2008 to
     examine the controls in place in the selected modules. Plans to correct any deficiencies in controls were derived
     based on the examination results and will be tracked at an agency level by program officials until the deficiencies
     are resolved.

     The implementation and regular testing of controls allows for Library management to assert that these controls
     provide reasonable assurance that the foregoing objectives are met. This testing is performed on the central
     financial and reporting systems, along with the subsidiary and program systems and the external financial interfaces
     used by the Library. The Library has continued to enhance the central financial system that was implemented in
     2004 to improve controls, reduce paper-based transactions, and decrease the number of program and subsidiary
     systems.




18
                                                                              Management’s Discussion and Analysis



                                            Stewardship Reporting
In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 29, "Heritage Assets and
Stewardship Land," the Library reports descriptive, non-financial information on heritage assets as basic information
in its financial statements. SFFAS No. 29 is effective for reporting periods beginning after September 30, 2005.

Prior to the issuance of SFFAS No. 29, information on heritage assets was reported as Required Supplementary
Stewardship Information (RSSI). SFFAS No. 29 reclassifies all heritage assets information as basic financial
information, except for condition information, which is reclassified as Required Supplementary Information (RSI).
SFFAS No. 29 provides for a phased-in approach whereby heritage asset information is moved from RSSI to basic
information in the financial statements. Certain disclosures must be reported as basic information beginning in
fiscal year 2006, with other disclosures reported as basic information beginning in fiscal years 2008 or 2009. While
full implementation of the standard is not required until reporting periods beginning after September 30, 2008, the
Library implemented the standard one year early and completed full implementation this fiscal year.


                                 Limitations of the Financial Statements
The Library's financial statements are the culmination of a systematic accounting process. The statements have been
prepared to report the financial position and results of operations of the Library of Congress, pursuant to the
hierarchy of accounting principles and standards set forth in Note 1 to the Financial Statements. While these
statements have been prepared from the books and records of the Library, they are in addition to the financial reports
used to monitor and control budgetary resources that are prepared from the same books and records. The statements
should be read with the realization that they are for a component of the U.S. Government, a sovereign entity. One
implication of this is that liabilities cannot be liquidated without legislation that provides resources to do so.




                                                                                                                         19
Management’s Discussion and Analysis




20
                                                                                    Consolidated Financial Statements

                           THE LIBRARY OF CONGRESS
                                  Consolidated Balance Sheets
                                     As of September 30, 2008 and 2007

                                                                                      (in thousands)
                                                                                FY 2008           FY 2007
ASSETS
     Intragovernmental:
         Fund Balance with Treasury (Note 2)                                $        326,548    $     314,554
         Investments (Note 4)                                                      1,246,271        1,174,112
         Accounts Receivable, Net (Note 5.A)                                           8,218           10,191
         Other Intragovernmental Assets                                                  723              686
     Total Intragovernmental                                                       1,581,760        1,499,543

     Cash and Other Monetary Assets (Note 1.G)                                           278               92
     Pledges Receivable – Donations (Note 5.B)                                        10,724            9,094
     Investments (Note 4)                                                             76,688          100,972
     Inventory and Operating Supplies and Materials (Note 1.K)                           854            1,003
     Property and Equipment, Net (Note 6)                                             67,556           48,217
     Other Assets                                                                        675            3,495

    Library Collections (Note 1.M)
TOTAL ASSETS                                                                $      1,738,535    $   1,662,416


LIABILITIES
     Intragovernmental:
         Accounts Payable and Accrued Funded Payroll, Benefits              $          4,445    $       5,521
         Advances from Others                                                         31,411           30,255
         Accrued Unfunded Workers’ Compensation (Note 9)                               1,555            1,634
         Other Intragovernmental Liabilities (Note 11)                                    10               13
     Total Intragovernmental                                                          37,421           37,423

     Accounts Payable and Accrued Funded Payroll, Benefits                            62,370           55,111
     Custodial Liability (Note 3)                                                  1,193,780        1,125,291
     Deposit Account Liability                                                         7,041            7,327
     Accrued Unfunded Annual and Compensatory Leave                                   23,530           22,431
     Actuarial Unfunded Workers’ Compensation (Note 9)                                 7,611            7,478
     Other Liabilities (Note 11)                                                       5,526            4,413
     TOTAL LIABILITIES                                                      $      1,337,279    $   1,259,474

     Commitments and Contingencies (Note 10)

NET POSITION
     Unexpended Appropriations – All Other Funds                            $        195,373    $     184,520
     Cumulative Results of Operations – Earmarked Funds (Note 18)                    177,318          191,713
     Cumulative Results of Operations – All Other Funds                               28,565           26,709
     TOTAL NET POSITION                                                     $        401,256    $     402,942

TOTAL LIABILITIES AND NET POSITION                                          $      1,738,535    $   1,662,416



                   The accompanying notes are an integral part of these financial statements.

                                                                                                                  21
Consolidated Financial Statements

                                    THE LIBRARY OF CONGRESS
                                    Consolidated Statements of Net Costs
                                      For the Years Ended September 30, 2008 and 2007

                                                                                                 (in thousands)
                                                                                             FY 2008        FY 2007
        NET COSTS BY PROGRAM AREA
           National Library:
              Program Costs                                                              $      429,916    $   433,832
              Less: Earned Revenue                                                               (4,227)        (4,546)
              Net Program Costs                                                                 425,689        429,286

            Law Library:
               Program Costs                                                                     23,453         23,925
               Less: Earned Revenue                                                                  (3)            (8)
               Net Program Costs                                                                 23,450         23,917

            Copyright Office:
               Program Costs                                                                      53,681         78,973
               Less: Earned Revenue                                                             (32,829)       (33,431)
               Net Program Costs                                                                  20,852         45,542

            Congressional Research Service:
               Program Costs                                                                    129,199        127,688
               Less: Earned Revenue                                                                  (3)            (2)
               Net Program Costs                                                                129,196        127,686

            National Library Service for the Blind and Physically Handicapped:
               Program Costs                                                                     45,478         51,040
               Less: Earned Revenue                                                                  (3)            (1)
               Net Program Costs                                                                 45,475         51,039

            Revolving and Reimbursable Funds:
               Program Costs                                                                      97,644         90,940
               Less: Earned Revenue                                                             (78,836)       (76,631)
               Net Program Costs                                                                  18,808         14,309

        NET COSTS OF OPERATIONS                                                          $     663,470     $   691,779





                          The accompanying notes are an integral part of these financial statements.

22
                                                                                              Consolidated Financial Statements


                                   THE LIBRARY OF CONGRESS 

                        Consolidated Statements of Changes in Net Position 

                                         For the Years Ended September 30, 2008 and 2007

                                                               FY 2008                                  FY 2007
                                                Earmarked     All Other     Consolidated Earmarked     All Other    Consolidated
                                                  Funds        Funds           Total       Funds        Funds          Total
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                $191,713      $26,709        $218,422     $180,273       $8,767      $189,040

Budgetary Financing Sources:
   Appropriations Used                                          546,447         546,447            0     574,291         574,291
   Non-exchange Revenue                               1,605          (1)          1,604        3,083           0           3,083
   Donations of Cash or Securities                   19,856            0         19,856       13,276           0          13,276
   Transfers In/(Out) Without
                                                      (375)        (785)         (1,160)     (2,997)        (488)        (3,485)
       Reimbursement
   Other                                              1,361                        1,361       1,102           0           1,102
Other Financing Sources (Non-exchange):
   Donations of Property and Services                 3,806       21,731          25,537         273       40,588         40,861
   Transfers – in/out without Reimbursement         (4,283)        4,283               0           0            0              0
   Imputed Financing                                  3,803       77,468          81,271       2,691       75,745         78,436
   Other                                           (23,985)            0        (23,985)      13,597            0         13,597
Total Financing Sources                               1,788      649,143         650,931      31,025      690,136        721,161
Net Cost of Operations                             (16,183)    (647,287)       (663,470)    (19,585)    (672,194)      (691,779)
Net Change                                         (14,395)        1,856        (12,539)      11,440       17,942         29,382

CUMULATIVE RESULTS OF OPERATIONS                  $177,318      $28,565        $205,883     $191,713     $26,709       $218,422

UNEXPENDED APPROPRIATIONS
Beginning Balances                                      $0      184,520         184,520          $0     $254,175       $254,175

Budgetary Financing Sources:
   Approprations Received                                        564,460         564,460                  558,309        558,309
   Appropriations Transferred In/(Out)                              (748)           (748)                   (594)          (594)
   Other Adjustments                                              (6,412)         (6,412)                (53,079)       (53,079)
   Appropriations Used                                         (546,447)       (546,447)                (574,291)      (574,291)
Total Budgetary Financing Sources                        0         10,853          10,853         0      (69,655)       (69,655)

TOTAL UNEXPENDED APPROPRIATIONS                          0      195,373         195,373           0      184,520         184,520

NET POSITION                                      $177,318     $223,938        $401,256     $191,713    $211,229       $402,942




                          The accompanying notes are an integral part of these financial statements.


                                                                                                                                   23
Consolidated Financial Statements

                                       THE LIBRARY OF CONGRESS
                                 Combined Statements of Budgetary Resources
                                          For the Years Ended September 30, 2008 and 2007

                                                                                                      (in thousands)
                                                                                            FY 2008                    FY 2007
     BUDGETARY RESOURCES
        Unobligated Balance, Brought Forward, October 1                                $         1,238,164     $           1,300,193
        Recoveries of Prior-year Unpaid Obligations                                                 19,330                    10,750
        Budget Authority:
            Appropriation                                                                          860,370                  866,810
            Spending Authority from Offsetting Collections:
                Earned:
                     Collected                                                                     129,391                  133,292
                     Change in Receivables from Federal Sources                                      (814)                   (1,547)
                Change in Unfilled Customer Orders:
                     Advances Received                                                                2,472                     3,426
                     Without Advances from Federal Sources                                          (1,340)                   (2,174)
                Expenditure Transfers from Trust Funds                                                                              0
        Total Budget Authority                                                                     990,079                   999,807
        Nonexpenditure Transfers, Net                                                                 (748)                   (3,294)
        Temporarily Not Available Pursuant to Public Law                                                  0                         0
        Permanently Not Available                                                                   (7,047)                 (53,124)
     TOTAL BUDGETARY RESOURCES                                                         $         2,239,778     $           2,254,332

     STATUS OF BUDGETARY RESOURCES
         Obligations Incurred:
             Direct                                                                    $           824,395     $             883,122
             Reimbursable                                                                          141,761                   133,046
         Total Obligations Incurred                                                                966,156                 1,016,168
         Unobligated Balance – Exempt from Apportionment                                         1,260,793                 1,226,452
         Unobligated Balance – Not Available                                                        12,829                    11,712
     TOTAL STATUS OF BUDGETARY RESOURCES                                               $         2,239,778     $           2,254,332

     CHANGE IN OBLIGATED BALANCE
        Unpaid Obligated Balance, Net, Brought Forward, October 1:
            Unpaid Obligations, Brought Forward                                        $           240,415     $             253,095
            Less: Uncollected Customer Payments, Brought Forward                                  (10,741)                  (14,462)
        Total Unpaid Obligation Balance, Net                                                       229,674                   238,633
        Obligations Incurred, net                                                                  966,156                 1,016,168
        Less: Gross Outlays                                                                      (905,941)               (1,018,098)
        Less: Recoveries of Prior-Year Unpaid Obligations                                         (19,330)                  (10,750)
        Change in Uncollected Customer Payments from Federal Sources                                 2,154                     3,721
        Unpaid Obligated Balance, Net, End of Period:
            Unpaid Obligations                                                                     281,300                  240,415
            Less: Uncollected Customer Payments from Federal Sources                                (8,587)                 (10,741)
     TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                                $           272,713     $            229,674

     NET OUTLAYS
         Gross Outlays                                                                 $           905,941     $           1,018,098
         Less: Offsetting Collections                                                            (131,864)                 (136,718)
         Less: Distributed Offsetting Receipts                                                    (29,153)                  (58,253)
     NET OUTLAYS                                                                       $           744,924     $             823,127
            (The Library has no Non-Budgetary Credit Program Financing Accounts; all amounts above are Budgetary.)

                              The accompanying notes are an integral part of these financial statements.


24
                                                                       Notes to the Consolidated Financial Statements


    NOTE 1              SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A. Reporting Entity

The Library of Congress (the Library), a legislative branch agency of the U.S. government, was established in 1800
primarily to provide information and policy analyses to the members and committees of the U.S. Congress. Since
then, the Library has been assigned other major missions such as administering the U.S. copyright laws, providing
cataloging records to the nation's libraries, and coordinating a national program to provide reading material for blind
and physically handicapped residents of the U.S. and its territories and U.S. citizens residing abroad. The Library
also provides services to other federal agencies and administers various gift funds and funds accepted and controlled
by the Library of Congress Trust Fund Board (TFB).

The Library's programs and operations are subject to oversight by the Joint Committee on the Library, the oldest
joint committee of the Congress, which is comprised of members of the U.S. House of Representatives and Senate.
The Library relies primarily on appropriated funds to support its programs and operations. Budget requests are
subject to review by the House and Senate Appropriations Subcommittees on Legislative Branch Appropriations.
The Library also receives funds from other agencies for services provided under the Economy Act and other
statutes. In addition, the Library administers several fee-for-service revolving funds and receives donations from the
public, which are classified as gifts or funds accepted and controlled by the TFB, which consists of the Librarian of
Congress (who is Chairman and Secretary of the TFB), the Chairman and Vice-Chairman of the Joint Committee on
the Library, the Secretary of the Treasury (or an assistant secretary designated in writing by the Secretary of the
Treasury), and ten additional members appointed by the President (two), the U.S. House of Representatives (four),
and the U.S. Senate (four).

Entity activities are those for which the Library has the authority to use the assets. Non-entity activities consist
primarily of custodial accounts that are not available for use by the Library.

B. Basis of Presentation
The accompanying financial statements report the financial position, net costs, changes in net position, budgetary
resources of the Library for fiscal years 2008 and 2007. These consolidated and combined financial statements
include the accounts of all funds under the Library's control, which have been established and maintained to account
for the resources of the Library. They were prepared from the Library's financial management system in accordance
with Generally Accepted Accounting Principles (GAAP).

Material intra-Library transactions and balances have been eliminated from the Consolidated Balance Sheets, the
Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net Position. The Statement
of Budgetary Resources is presented on a combined basis; therefore, intra-Library transactions and balances have
not been eliminated from this statement.

As a legislative branch agency, the Library is not required to follow the executive agency accounting principles
established by the Comptroller General under 31 U.S.C. 3511 or the standards developed by the Federal Accounting
Standards Advisory Board (FASAB). However, the Library maintains its fund balances with the Department of the
Treasury and submits information required to incorporate its financial and budgetary data into the overall federal
government structure. For purposes of financial management and reporting, the Library has issued a regulation
(LCR 1510), which adopts the federal standards for financial reporting and internal controls in a manner consistent
with a legislative agency. The Library has not adopted the Federal Financial Management Improvement Act of
1996, the Federal Managers Financial Integrity Act and the Government Performance and Results Act, as these
standards are not applicable to the Library. However, the Library uses these sources as guidance and reference in its
operations.

The statements include 4 (4) appropriated fund accounts; 26 (26) revolving (and gift revolving) funds; 23 (23)
reimbursable funds; 104 (102) TFB funds; and 134 (120) gift funds for fiscal year 2008 (and 2007, respectively).




                                                                                                                          25
Notes to the Consolidated Financial Statements


     C. Basis of Accounting

     The Library’s financial statements conform to accounting principles generally accepted in the United States of
     America as promulgated by the Federal Accounting Standards Advisory Board (FASAB). The American Institute
     of Certified Public Accountants recognizes FASAB Standards as generally accepted accounting principles for
     federal reporting entities.

     The statements were also prepared based on guidance published in the Office of Management and Budget (OMB)
     Circular No. A-136, Financial Reporting Requirements. The Library is not required to adopt this circular, and
     accordingly has elected to use the disclosures management deems necessary for the fair presentation of financial
     statement information.

     The accounting structure of the Library is designed to reflect both accrual and budgetary accounting. Under the
     accrual method, revenues are recognized when earned and expenses are recognized when a liability is incurred,
     without regard to receipt or payment of cash. The budgetary accounting, on the other hand, is designed to recognize
     the obligation of funds according to legal requirements, which in many cases is prior to the occurrence of an accrual-
     based transaction. The budgetary accounting facilitates compliance with legal constraints on and controls over the
     use of federal funds.

     The preparation of financial statements in conformity with GAAP requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and the disclosure of contingent assets and
     liabilities at the date of the financial statements and the reported amounts of revenues and expenses during the
     reporting period. Actual results could differ from these estimates.

     D. Revenues and Other Financing Sources

     Appropriations

     The Library receives the majority of its funding to support its programs through four appropriations that include
     both annual and no-year funding. The appropriated funds may be used, within statutory limits, for operating and
     capital expenditures including equipment, furniture and furnishings. Appropriations are recognized as revenues at
     the time they are expended. The four appropriations for fiscal year 2008 are:

         •	   Library of Congress, Salaries and Expenses (annual and no-year)
         •	   Copyright Office, Salaries and Expenses (annual and no-year)
         •	   Congressional Research Service, Salaries and Expenses (annual)
         •	   National Library Service for the Blind and Physically Handicapped, Salaries and Expenses (annual and no-
              year)

     Earned Revenues

     Additional amounts are obtained through reimbursements from services performed for other federal agencies as
     authorized by the Economy Act and the Library's annual appropriations legislation. In addition, the Library operates
     several self-sustaining revolving funds that generate revenues from the sale of various products and services to the
     public and federal customers. Revolving and reimbursable fund revenue is recognized when goods have been
     delivered or services rendered.

     Under the authority of 2 U.S.C. 182, the Cooperative Acquisitions Revolving Fund was established on October 1,
     1997, and is the program under which the Library acquires foreign publications and research materials on behalf of
     participating institutions on a cost-recovery basis (over time). 2 U.S.C. 182 was amended for the establishment of
     revolving funds for Audio and Video Duplication, Gift Shop Operations, Decimal Classification, Document
     Reproduction and Microfilm Services, Special Events, FEDLINK and Federal Research Program.

         •	   The Audio and Video Duplication fund provides audio and video duplication and delivery services which
              are associated with the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia.
         •	   The Decimal Classification fund performs decimal classification development.


26
                                                                      Notes to the Consolidated Financial Statements


    •	  The Gift Shop fund operates a gift shop and other sales of items associated with collections, exhibits,
        performances, and special events at the Library.
    •	 The Document Reproduction and Microfilm Services fund provides document reproduction and 

        microfilming services.

    •	 The Special Events fund performs services related to the hosting of special events and programs by the
        Librarian in Library facilities.
    •	 The FEDLINK program is the program of the Library under which procurement of publications and library
        support services, along with related accounting, education and support services are provided to Federal
        Government or District of Columbia entities.
    •	 The Federal Research Program provides research reports, translations and analytical studies for Federal
        Government or District of Columbia entities.
The revolving funds report, but are not required to recover, unreimbursed inter-entity costs (imputed costs).

Imputed Financing Sources

In accordance with FASAB’s Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial
Cost Accounting Concepts and for the Federal Government Standards,” the Library has recorded expenses for the
unreimbursed full costs of goods and services that it receives from other legislative branch agencies (i.e., the
Architect of the Capitol and the Government Printing Office) and executive branch agencies specifically identified
for fiscal years 2008 and 2007 reporting by OMB, (i.e., the Office of Personnel Management (OPM) and the
Department of the Treasury). Since these costs are not actually paid to the other agencies, an imputed financing
source is recorded to offset these costs that are financed by the other Federal agencies.

Custodial Funds

The Library of Congress Copyright Office Licensing Division administers the compulsory and statutory licenses
covered by the Copyright Act (17 U.S.C.). The Licensing Division receives royalty fees from cable television
operators for retransmitting television and radio broadcasts, from satellite carriers for retransmitting "super station"
and network signals, and from importers and manufacturers for distributing digital audio recording technologies
(DART). Refunds may arise when a cable, satellite, or DART remitter inadvertently overpays or is otherwise
entitled to a refund. Additional royalty fees may also be rquested from the remitter when necessary. The Licensing
Division invests the licensing royalty fees in market-based U.S. Treasury notes and bills. Because these investments
are held in a custodial capacity for the copyright owners, income does not accrue to the Library's benefit.

Controversies regarding the distribution of the royalties are resolved by the Copyright Royalty Board (CRB), which
is composed of three Copyright Royalty Judges and their staff. The CRB has full jurisdiction over setting royalty
rates and terms and determining distributions. Decisions may be appealed to the United States Court of Appeals for
the District of Columbia Circuit.

Donation and Interest Revenue

The Library receives monetary gifts from donors and receives interest on invested funds. The Library also received
gifts of donated property or services during fiscal years 2008 and 2007. The Library records these in-kind
donations as donated revenue in the period earned and an offsetting expense in the same period. The Ad Council
provided nearly all of the in-kind donations in the form of free advertising for America’s Library website. Several
vendors provided in-kind donations for the Library’s annual book festivals and several other meetings. Finally, the
Ira and Leonore Gershwin Trust Fund and Related Charitable Trust provided in-kind materials and services to the
Library.

Deferred Credits

The Library received gifts subject to certain conditions being met. These are not considered earned until the
conditions are met, and are recorded as deferred credits until earned.




                                                                                                                           27
Notes to the Consolidated Financial Statements


     E. Gift and TFB Funds

     The Library administered gift and TFB funds with combined asset value of approximately $150.2 million and
     $170.4 million during fiscal years 2008 and 2007, respectively. Funds are restricted as to their use, which must be
     in accordance with the terms of the gift agreement. In general, TFB funds are either temporarily restricted (principal
     may be spent) or permanently restricted (principal may not be spent). Additional restrictions may be imposed on
     TFB funds by the terms of an agreement or donor's will. Library fund managers administer and oversee the gift and
     TFB funds to ensure they are used as directed by the donors and in accordance with Library policy.

     F. Fund Balance with Treasury

     The amount shown as Fund Balance with Treasury represents the balances of the appropriated, reimbursable, gift
     and TFB funds, revolving, deposit and custodial funds that are on deposit with the U.S. Treasury.

     G. Cash and Other Monetary Assets

     Cash and other monetary assets are defined as all cash not held by the U.S. Treasury. This category includes
     deposits in transit, cash on hand and imprest funds.

     The Library receives and utilizes foreign currencies in carrying out operations abroad as it conducts business
     through six overseas offices. Foreign currency balances at year-end are immaterial to the financial statements.

     H. Investments (Net)

     Gift and TFB Funds - The TFB determines the investment policy for the Library's gift and TFB funds. The policy
     provides three options for investment of TFB funds:

         •	   A permanent loan with the U.S. Treasury

         •	   A pool of U.S. Treasury market-based securities

         •	   A private investment pool consisting of the following stock, index and money market funds utilized during
              fiscal year 2008 and 2007:

              •	   Vanguard Institutional Index Fund
              •	   Vanguard Capital Opportunity Fund
              •	   Fidelity Blue Chip Growth Fund
              •	   Fidelity Capitol Appreciation Fund
              •	   Fidelity Growth Company Fund
              •	   Fidelity Dividend Growth Fund

     The policy for gift funds allows only for investment in U.S. Treasury market-based securities.

     Under 2 U.S.C. 158, up to $10 million of the Library's gift and TFB funds may be invested with the U.S. Treasury as
     a permanent loan at a floating rate of interest, adjusted monthly, but no less than four percent per annum. The
     permanent loan is an interest bearing investment recorded at cost, which is market value.

     Treasury securities are intended to be held to maturity, are valued at cost, and are adjusted for the amortization of
     discounts and premiums. Interest is computed using the straight-line method, which approximates the effective
     interest method.

     Stock and money market funds are stated at current market value and are considered available for sale. Unrealized
     gains and losses are recognized and recorded as a component of non-exchange revenue in the statement of changes
     in net position.




28
                                                                       Notes to the Consolidated Financial Statements


All gift and TFB fund investments are obtained and held by the gift and TFB funds under conditions set forth in the
respective gift and TFB instruments.

Custodial Fund - Copyright royalties collected by the Copyright Office on behalf of copyright owners are invested,
net of service fees, in U.S. Treasury securities. Treasury securities are intended to be held to maturity, are valued at
cost and are adjusted for the amortization of discounts and premiums. Interest is computed using the straight-line
method, which approximates the effective interest method. These investments will be held until distributions are
made to copyright owners. Income accrues to the benefit of the copyright owners.

Deposit Funds - Pursuant to Public Law 105-80, funds deposited by copyright applicants are invested, based on the
unearned balance available, by the Copyright Office in U.S. Treasury securities. Treasury securities are intended to
be held to maturity, are valued at cost and are adjusted for the amortization of discounts and premiums. Interest is
computed using the straight-line method, which approximates the effective interest method. These investments will
be held until the deposit fees are earned and income accrues to the benefit of the Copyright Office.

I. Accounts Receivable

Accounts receivable primarily resulted from billings to other federal agencies under reimbursable interagency
agreements for database retrieval and other library services. The Library has established an allowance for doubtful
accounts against accounts receivable due from non-federal customers, based on past collection experience. The
Library does not record allowance for doubtful accounts for intragovernmental accounts receivable in accordance
with SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” which cites that “losses on receivables should
be recognized when it is more likely than not that the receivable will not be totally collected.” Intragovernmental
receivables are likely to be totally collected.

J. Pledges Receivable
Contributions of unconditional promises to give (pledges) to the Library and the Library of Congress TFB are
recognized as donated revenue in the period the pledge is received. They are recorded at their estimated present
value using a market-based discount rate. Accretion of the discount in subsequent years is also recorded as donated
revenue. Substantially all of the Library's pledges are from major corporations or donors. The Library regularly
monitors the status of all pledges and adjusts accordingly; therefore no allowance for uncollectible pledges has been
established.

K. Inventory and Related Property
The Library's inventories and supplies and materials are primarily comprised of bibliographic products, and
unissued supplies that will be consumed in future operations; materials used to reproduce printed materials; sound
recordings for both internal and external sales; and sales shop merchandise for resale. Consumable operating
supplies are valued at cost using a first-in first-out method of valuation. Sales shop merchandise is valued at cost or
market, whichever is lower. The recorded values of inventory and operating materials and supplies are adjusted for
the results of periodic physical counts.

L. Property and Equipment

For fiscal years prior to 1998, the Library capitalized furniture and equipment at cost if the initial acquisition cost
was $10,000 or more. Starting in fiscal year 1998, the Library capitalizes furniture and equipment at cost if the
initial acquisition cost is $25,000 or more. Depreciation is computed on a straight-line basis using estimated useful
lives.

Property and equipment accounts are maintained in three categories of funds: Appropriated, Reimbursable and
Revolving. The appropriated fund category includes all property and equipment used by the Library for general
operations. Property and equipment purchased by the Integrated Support Services Administrative Working Fund are
recorded in the reimbursable funds. Property and equipment purchased by FEDLINK, the Federal Research
Program, Document Reproduction and Microfilm Service, Audio Visual Services, and the Cooperative Acquisitions
Program are recorded in the revolving funds.



                                                                                                                           29
Notes to the Consolidated Financial Statements



     The Library occasionally acquires property and equipment by direct gift or by purchase from funds donated for a
     specific purpose or project. Because property is generally not restricted for use to gift and trust activities, property
     accounts are not maintained in the gift and TFB funds. Capitalized property and equipment acquired through gifts
     are recognized as donated revenue in the gift and TFB funds and transferred to the Library's appropriated fund. The
     Library records the donated property and equipment at its fair market value at the time of the gift.

     Operating equipment is amortized over a 3 to 20-year period. Software includes ADP software purchased from
     outside vendors and software defined as “internal use software” in accordance with SFFAS No. 10, “Accounting for
     Internal Use Software.” All software recorded has an estimated useful life of three years or more and a value of at
     least $10,000 per item acquired in fiscal years 1997 and prior or at least $100,000 per item acquired in fiscal years
     after 1998.

     Leased equipment meeting the criteria for capitalization in accordance with Statements of Federal Financial
     Accounting Standards is included in property and equipment.

     Land and buildings are excluded from the Library's property and equipment accounts because they are under the
     custody and control of the Architect of the Capitol. This arrangement encompasses four Capitol Hill buildings (the
     Thomas Jefferson, James Madison, John Adams Buildings, and the Special Facilities Center), a secondary storage
     facility at Fort Meade, Maryland, and the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia.
     The Architect receives an appropriation from Congress to fund maintenance, care and operations of the Library’s
     buildings and grounds. Costs associated with the acquisition and maintenance of these buildings is accounted for by
     the Architect. However, the Library has recorded the inter-entity cost and related imputed financing source in its
     books. The Library does capitalize and depreciate leasehold improvements to its facilities as long as the
     improvements were made using the Library’s funding sources and the acquisition cost is at least $100,000.

     M. Library Collections
     The Library classifies its collections as Heritage Assets, that is, assets with historical, cultural, educational, artistic
     or natural significance. The Library’s mission is to make its resources available and useful to the Congress and the
     American people and to sustain and preserve a universal collection of knowledge and creativity for future
     generations.

     The Library’s collection development policies are designed to fulfill its responsibilities to serve (1) the Congress and
     United States government as a whole, (2) the scholarly and library community, and (3) the general public. Written
     collection policy statements ensure that the Library makes every effort to possess all books and library materials
     necessary to the Congress and various offices of the United States government to perform their duties; a
     comprehensive record, in all formats, documenting the life and achievement of the American people; and a universal
     collection of human knowledge embodying, primarily in print form, the records of other societies, past and present.

     Copyright deposits are a major source of the Library’s collections of Americana. The Library also acquires materials
     by purchase, transfer from other federal agencies, gift, domestic and international exchange, or by provisions of state
     and federal law. Many of these materials are foreign publications. Various preservation methods are used to
     maintain the collections, and disposals occur only for the exchange and gift of unwanted or duplicate copies. As of
     September 30, 2008 and 2007 the Library has 91 and 90 collections managed by its custodial units.

     The cost of acquiring additions to the collections is expensed, when incurred, in the statement of net cost. (See note
     13.) Supplemental information regarding the condition and preservation of the collections is included with the
     Management Assertion on the collections.

     N. Liabilities
     Liabilities represent the amounts that are likely to be paid by the Library as a result of transactions that have already
     occurred. Liabilities for which an appropriation has not been enacted, or which are the result of deposit account
     activities, are classified as liabilities not covered by budgetary resources. For accrued unfunded annual leave,




30
                                                                      Notes to the Consolidated Financial Statements


compensatory time earned, workers' compensation and capital lease liabilities, it is not certain that appropriations
will be enacted to fund these amounts.

    Advances from Others are funds received for the revolving programs that have not yet been earned.

    Custodial and Deposit Liabilities are customer funds on deposit for Copyright, Document Reproduction and
    Microfilm Services, and Cataloging Distribution Service products and services. This category also includes the
    custodial funds for Copyright royalties.

    Accrued Annual and Compensatory Leave - The Library's basic leave policy is contained in Title 5, U.S.C.; the
    Uniform Annual and Sick Leave Regulations of the Office of Personnel Management; and the decisions of the
    Comptroller General. Generally, each employee may carry forward a maximum of 240 hours of annual leave
    per calendar year. Annual leave is accrued as it is earned and the liability is adjusted at the end of each fiscal
    year based on annual leave earned and taken. Annual leave earned in excess of the maximum permitted
    carryover is forfeited. Each year, the balance in the accrued annual leave account is also adjusted to reflect
    current pay rates.

    Employees' compensatory time earned but not taken is also accrued at year-end. An employee may accumulate
    a maximum of 40 hours of compensatory time during the fiscal year. A maximum of 20 hours may be carried
    forward from one leave year to the next only when it was earned during the last pay period of the leave year.
    Exceptions to the accumulation and carry forward rules require the approval of the Librarian or his/her
    designee.

    Sick leave and other types of nonvested leave are expensed as taken.

    Capital Lease Liabilities are liabilities resulting from capital leases of equipment. The Library’s lease
    agreements are annual fiscal year contracts that are subject to the availability of funding. The agreements
    contain a lease to purchase provision and there is no penalty for discontinuing the lease and turning back
    equipment prior to the completion of the agreement. There were no capital leases in fiscal years 2008 or 2007.

O. Federal Employee Retirement Benefits

Approximately 28 percent and 30 percent of the Library's employees participated in the Civil Service Retirement
System (CSRS) during fiscal years 2008 and 2007, respectively, to which the Library makes contributions equal to
7.0 percent of pay. Approximately 3 percent of employees under CSRS during fiscal years 2008 and 2007 are also
covered by Social Security (FICA), for which the Library’s contribution is slightly less.

Approximately 69 percent and 67 percent of the Library’s employees were covered by the Federal Employees
Retirement System (FERS) during fiscal years 2008 and 2007, respectively, to which the Library's normal
contribution was 11.2 percent of pay during fiscal years 2008 and 2007. Additionally, for employees under FERS,
the Library contributes an automatic 1% of employee's pay, plus matches employee Thrift Savings Plan (TSP)
contributions up to 4 percent of pay (matched dollar-for-dollar on the first 3 percent of pay and 50 cents on the
dollar for the next 2 percent of pay). Under FERS, the employee is also covered by FICA to which the Library
contributes the employer's matching share.

Approximately 3 percent of the Library's employees were covered only by FICA during fiscal years 2008 and 2007,
to which the Library contributes the employer’s matching share.

The accrued contributions due at the end of the fiscal year are reported as liabilities covered by budgetary resources.

The actuarial present value of accumulated benefits, assets available for benefits, and unfunded pension liability of
Social Security, FERS and CSRS is not allocated to individual Federal departments and agencies. However, in
accordance with SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” current year expenses were
recorded for the service cost of the Library’s employee retirement, health and life insurance benefits during fiscal
years 2008 and 2007, and was offset by an imputed financing source, which represents the amount being financed
directly by OPM.



                                                                                                                          31
Notes to the Consolidated Financial Statements



     P. Federal Government Transactions

     The financial activities of the Library interact with and depend on other federal government agencies. Thus, the
     Library's financial statements do not reflect all financial decisions and activities applicable to it as if it were a stand-
     alone entity. The financial statements do not contain the cost of activities performed for the benefit of the entire
     government, nor do they include the agency's share of the federal deficit or of public borrowings, including interest
     thereon. However, expenses have been recognized for expenses incurred by certain other agencies on behalf of the
     Library, including settlement of claims and litigation paid by the Treasury’s Judgment Fund and the partial funding
     of employee benefits by OPM.

     The Library's program for the blind and physically handicapped participates in the U.S. Postal Service's (USPS)
     "Matter for Blind and Other Handicapped Persons" program (39 U.S.C. 3403 - 3406). This Postal Service program
     receives an appropriation from Congress to provide free postage for qualifying organizations, programs, and
     individuals such as mail from war zones, letters from blind people to anyone, and organizations that work for the
     blind. The Library's National Library Service for the Blind and Physically Handicapped uses this free matter
     program for mailing all books and equipment to its participating lending libraries and patrons. No cost for this has
     been determined, nor included in the Library’s financial statements as the Library views the relationship with the
     USPS and state and local libraries as a partnership and not inter-entity costs.

     Services Provided to other Federal Agencies:

         •	   The Library is authorized to provide to other federal libraries and agencies services such as automated
              library information and other data base retrieval services through data base vendors and in-house research
              studies. These services are provided on a cost reimbursement basis and are billed in advance of providing
              the services. At year-end the Library estimates the amount received in advance (Advances From Others -
              Intragovernmental) and the amount to be received for services provided (Accounts Receivable -
              Intragovernmental).

     Services Provided by other Federal Agencies:

     Three governmental agencies provide administrative services to the Library on a reimbursable basis.

         •	   The Department of Agriculture's National Finance Center (NFC) processes the Library's personnel, payroll,
              and employee benefits accounting transactions.

         •	   The Library utilizes the services of the Department of State as documented by the International Cooperative
              Administrative Support Services (ICASS) system to support the Library's six overseas field offices.

         •	   General Services Administration (GSA) provides building and vehicle leasing services for the Library.

     Q. Related Party Organizations

     The Library lends support to several related organizations, projects, and programs from which it receives benefits in
     various forms. The following is a list of these organizations or programs:

         1. 	 Telephone Pioneers of America - The Telephone Pioneers is a large industry-related organization that
              voluntarily repairs playback machines for the blind and physically handicapped program. Approximately
              1,500 Telephone Pioneers (AT&T retirees) and Elfuns (General Electric retirees) donate their time to repair
              the cassette book machines and talking book machines.

         2. 	 Library of Congress Child Care Association (LCCCA) - The LCCCA is a nonprofit corporation under
              the District of Columbia's Nonprofit Corporation Act. It was granted 501(c)(3) status by the Internal
              Revenue Service on August 31, 1992, and currently operates as the "Little Scholars Child Development
              Center." The center is located on the ground floor of the Library's Special Facilities Center, 601 East
              Capitol Street, District of Columbia. The center provides childcare for Library employees and other federal



32
                                                                  Notes to the Consolidated Financial Statements


    and non-federal employees. Its operations, management, and employees are the responsibility of the
    LCCCA and not the Library. However, the Library and the Architect of the Capitol support the center with
    equipment, free space, cleaning and maintenance of grounds and building, utilities, local telephone service,
    and security. The value of the services provided by the Library cannot be readily determined. In addition,
    the Library, in accordance with Public Law 106-554, pays the government contributions for individuals
    receiving health, life and retirement benefits provided by the Office of Personnel Management. The
    Library provides an official who is a non-voting representative on the center's Board of Directors and who
    acts as a liaison with the Library.

3. 	 The Archer M. Huntington Charitable Trust - This charitable trust was established in 1936 and is
    controlled and invested by the Bank of New York. The assets of the endowment are not a part of the TFB
    and the board's only control over its investment activities is through the Librarian of Congress' role as
    trustee. The trust is defined as a split-interest agreement with a fair value of assets of $ 4.6M and $5.7M at
    September 30, 2008 and 2007, respectively. The Library is entitled to one-half of the income from the trust
    for perpetuity, which is used to support a rotating consultantship to bring "distinguished men of letters . . ."
    to the Library. Currently, the income assists in the funding of a "poet laureate" position, the acquisition of
    materials for the Library’s Hispanic collections, and the promotion of activities of the Hispanic Division,
    particularly those that relate to Spain, Portugal and Latin America.

4. 	 Ira and Leonore Gershwin Trust Fund and Related Charitable Trust - Under the will of Mrs. Leonore
    Gershwin, the TFB is the beneficiary of 37.5 percent of Mrs. Gershwin's "1987 Trust." The will
    established the "Library Charitable Trust" which was accepted by the TFB in January 1992. The primary
    purpose of the trust is to perpetuate the name and works of George and Ira Gershwin through all resources
    of the Library. The charitable trust does not belong to the Library but is a separate entity administered by
    trustees. The net income of the charitable trust is distributed to the Library's Ira and Leonore Gershwin
    Trust Fund yearly or upon the request of the Library. Income is recorded by the Library in the period
    received. The balance of the Principal of the charitable trust will be distributed to the Library in 2033, fifty
    years after the date of death of Ira Gershwin.




                                                                                                                       33
Notes to the Consolidated Financial Statements



        NOTE 2               FUND BALANCE WITH TREASURY

     A. Fund balance with Treasury at September 30, 2008 and 2007, is summarized as follows:

                                                                                       (in thousands)
                                                                                 FY 2008            FY 2007
            Appropriated Funds                                              $         234,078 $          218,841
            Revolving and Reimbursable Funds                                           75,713             79,039
            Gift and TFB Funds 1                                                       15,054             14,210
            Custodial, Deposit and Other Funds                                          1,703              2,464
            TOTAL                                                           $         326,548 $          314,554

        1
          At September 30, 2008 and 2007, the gift and TFB fund balance with Treasury included $10 million
        invested in the permanent loan, which is included in fund balance with Treasury, at interest rates of 4.1 and
        4.7 percent, respectively.

     B. Status of Fund Balance with Treasury
                                                                                       (in thousands)
                                                                                 FY 2008            FY 2007
            Unobligated Balances – Available                                $          22,831 $           59,403
            Unobligated Balances – Unavailable                                         29,271             23,068
            Obligated Balances Not Yet Disbursed                                      272,854            229,895
            Non-budgetary                                                               1,592              2,188
            TOTAL                                                           $         326,548 $          314,554




34
                                                                  Notes to the Consolidated Financial Statements



    NOTE 3              CUSTODIAL FUNDS

Custodial activity consists of the following:

                                                                               (in thousands)
                                                                         FY 2008           FY 2007
     Beginning Custodial Liability                                  $       1,125,291 $       1,122,435

     Cash Collections:
        Licensing Fees                                              $         249,864 $          233,740
        Investment Interest                                                    26,177             54,774
        Total Cash Collections                                                276,041            288,514
     Investment Amortization / Accruals                                         (322)             (1,272)
     Total Custodial Revenue                                        $         275,719 $          287,242

     Disposition of Collections:
       Payments to Copyright Owners                                 $       (204,664) $         (279,931)
       Refunds                                                                (1,128)               (964)
       Change in Investment Premium                                             1,795                 439
       Retained by Copyright Licensing for Administrative Costs               (3,233)             (3,930)
     Total Custodial Expense                                        $       (207,230) $         (284,386)

     Net Custodial Activity                                         $          68,489 $             2,856
     ENDING CUSTODIAL LIABILITY                                     $       1,193,780 $         1,125,291




                                                                                                             35
Notes to the Consolidated Financial Statements



         NOTE 4                 INVESTMENTS, NET

     Investments at September 30, 2008 and 2007 are as follows:


                                                                               (in thousands)
                                                       Intragovernmental
                                                           Investments     Other Investments
                          FY 2008                       (Non-Marketable,     (Private Sector)
                                                                                                        Total
                                                          Market-Based)
          Face Value                                    $        1,244,253 $                  $            1,244,253
          Cost                                                                           91,307                 91,307
          Unamortized Premium                                        1,938                                       1,938
          Unrealized Discount                                        (499)                                       (499)
          Interest Receivable                                         579                                          579
          Investments, Net                             $        1,246,271 $              91,307 $          1,337,578
          Market Value                                 $        1,245,790 $              76,688 $          1,322,479



                                                                               (in thousands)
                                                       Intragovernmental
                                                           Investments     Other Investments
                          FY 2007                       (Non-Marketable,     (Private Sector)
                                                                                                        Total
                                                          Market-Based)
          Face Value                                    $        1,176,414 $                  $            1,176,414
          Cost                                                                           90,046                 90,046
          Unamortized Premium                                         392                                          392
          Unrealized Discount                                      (3,397)                                      (3,397)
          Interest Receivable                                         703                                          703
          Investments, Net                             $        1,174,112 $              90,046 $          1,264,158
          Market Value                                 $        1,172,913 $             100,972 $          1,273,885



     A. Intragovernmental Investments

     Non-marketable, market-based securities are Treasury notes and bills issued to governmental accounts that are not
     traded on any securities exchange, but mirror the prices of marketable securities with similar terms. TFB fund
     investment maturity dates for fiscal years 2008 and 2007 range from October 2, 2008 to March 5, 2009 and October
     4, 2007 to April 30, 2008, respectively, and interest rates for the same fiscal years range from .11 percent to 1.96
     percent and 3.72 percent to 4.91 percent, respectively.

     Custodial funds investment maturity dates for fiscal years 2008 and 2007 range from October 16, 2008 to August
     31, 2009 and October 4, 2007 to August 31, 2008, respectively, and interest rates for the same fiscal years range
     from .10 percent to 4.625 percent and 3.345 percent to 3.75 percent, respectively.




36
                                                                        Notes to the Consolidated Financial Statements


B. Other Investments

Other investments are the Library's investments in private sector mutual funds. Cost was derived from the
investments made plus reinvested gains, dividends, and interest.

Balances at September 30, 2008 and 2007 are as follows:


                                            Non-Treasury Investments
                                               Fiscal Year 2008   Fiscal Year 2007




                      $120                          $101.0
                                                                              $91.3            $90.0
                      $100
                                    $76.7

                      $80
      (in millions)




                      $60


                      $40


                      $20


                       $0
                             Equity Mutual Funds (market value)            Equity Mutual Funds (cost)




                                                                                                                   37
Notes to the Consolidated Financial Statements



         NOTE 5              RECEIVABLES

     The breakdown of consolidated gross and net accounts receivable at September 30, 2008 and 2007 are as follows:

     A. Accounts Receivable

                                                                                           (in thousands)
                                                                                     FY 2008            FY 2007
          Intragovernmental Accounts Receivable, Gross and Net                  $           8,218 $          10,191


          With the Public:
              Accounts Receivable, Gross                                                     689              3,505
              Less: Allowance for Doubtful Accounts                                          (30)              (32)
              Accounts Receivable, Net                                          $            659    $         3,473


     B. Pledges Receivable

     At September 30, 2008 and 2007, the Library had unconditional pledges of contributions totaling $11.8 million and
     $10.4 million, which were discounted through fiscal years 2034 and 2033 at a market discount rate and included in
     the statement of financial position at their discounted value of $10.7 million and $9.1 million, respectively.

     The amounts due in future years, at September 30, at their current discounted value are:

                                                                                          (in thousands)
                                                                                    FY 2008            FY 2007
          2008                                                              $                      $          5,535
          2009                                                                             7,506              1,068
          2010                                                                             1,137                799
          2011                                                                               669                234
          2012                                                                                 67                61
          2013 and thereafter                                                              1,345              1,397
          TOTAL                                                             $             10,724 $            9,094




38
                                                                       Notes to the Consolidated Financial Statements



    NOTE 6              PROPERTY AND EQUIPMENT

Property and equipment that were capitalized at September 30, 2008 and 2007 are as follows:

                                                                    (in thousands)
                                             FY 2008                            FY 2007
                                           Accumulated                         Accumulated
    Classes of Property        Acquisition                Net Book Acquisition                Net Book
                                           Depreciation /                      Depreciation /
     and Equipment               Value                     Value     Value                     Value
                                           Amortization                        Amortization
Operating Equipment           $     59,367 $       46,667 $ 12,700 $   61,119 $       47,839 $ 13,280
Software                             50,677            19,979      30,698            28,617         13,774       14,843
Furniture & Furnishings               2,179               696       1,483              985             613          372
Leasehold Improvements               33,715            11,344      22,371            28,461         12,510       15,951
Leasehold Improvements-in
                                        304                 0         304             3,771               0       3,771
Progress
TOTAL                          $    146,242 $          78,686 $    67,556 $      122,953 $          74,736 $     48,217



    NOTE 7              NON-ENTITY ASSETS

Entity assets are those assets that the Library has authority to use for its operations. Non-entity assets are those held
by the Library but are not available for use in its operations.
                                                                                        (in thousands)
                                                                              FY 2008                  FY 2007
 Intragovernmental Non-Entity Assets:
    Fund Balance with Treasury                                           $                 111 $                   $275
    Investments                                                                     1,193,669                 1,125,063
    Accounts Receivable, Net                                                                  2                        2
 Total Intragovernmental Non-Entity Assets                                          1,193,782                 1,125,340
 Investments                                                                                  0                        0
 Other Assets-with the Public                                                               23                         5
 Total Non-Entity Assets                                                 $          1,193,805    $            1,125,345
 Total Entity Assets                                                     $            544,730 $                 537,071
 Total Assets                                                            $          1,738,535 $              $1,662,416




                                                                                                                            39
Notes to the Consolidated Financial Statements



         NOTE 8              LEASES

     A. Capital Leases

     The Library did not have assets under capitalized leases for machinery and equipment as of September 30, 2008 and
     2007.

     B. Operating Leases

     The Library leases office space and vehicles from the General Services Administration and has entered into other
     operating leases for various types of equipment. Additionally, the Library’s overseas field offices lease operating
     space from the Department of State.

     Lease costs for office space, vehicles and equipment for fiscal years 2008 and 2007 amounted to $4,510,495 and
     $4,985,116 respectively.

     Under existing commitments as of September 30, estimated future minimum lease payments are as follows:

                                                                                         (in thousands)
                                                                                   FY 2008            FY 2007
          2008                                                                $                0 $           4,444
          2009                                                                            4,395              3,933
          2010                                                                            4,019              3,895
          2011                                                                            1,451              1,329
          2012                                                                              131                 14
          2013 and thereafter                                                               104                  0
          TOTAL ESTIMATED FUTURE LEASE PAYMENTS                               $          10,100 $           13,615



         NOTE 9              WORKERS’ COMPENSATION

     The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to covered federal
     civilian employees injured on the job, employees who have incurred a work-related occupational disease, and
     beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Claims
     incurred for benefits for Library employees under FECA are administered by the Department of Labor (DOL) and
     later billed to the Library.

     The Library is using estimates provided by DOL to report the FE1CA liability. The Library accrued $1,554,776 and
     $1,634,128 of unbilled or unpaid workers' compensation costs as of September 30, 2008 and 2007, respectively.
     The amount owed to DOL is reported on the Library’s Balance Sheet as an intragovernmental liability. The Library
     also established an estimated unfunded liability payable to employees, for future costs based on historical claims
     rates. The estimated future unfunded liability is $7,610,625 and $7,478,118 as of September 30, 2008 and 2007
     respectively, and is based on a ten-year projection. This liability is recorded on the Balance Sheet as a liability with
     the public.




40
                                                                    Notes to the Consolidated Financial Statements



   NOTE 10             CONTINGENT LIABILITIES

Several claims relating to employment matters are outstanding against the Library. While management cannot
predict the outcome of the claims and is unable to estimate the potential loss, the maximum loss under each claim
may not exceed $300,000 in compensatory damages, plus any equitable relief (back pay, front pay, attorney's fees).
Under law, any claims settled internally would be paid from the Library's funds and any claims defended in court
would be settled by the Treasury's Claims, Judgments and Relief Act Fund.


   NOTE 11             OTHER LIABILITIES

Other Liabilities as of September 30, 2008 and 2007 are comprised of the following:

                                                                                    (in thousands)
                                                                            FY 2008               FY 2007
     Other Liabilities-Intragovernmental:
     Deferred Credits                                                   $              (20)   $              (11)
     Liability for Clearing Accounts                                                     30                    24
        Total Intragovernmental                                                          10                    13

     Other Liabilities-With the Public
     Deferred Credits and Pledges                                                     1,968                 1,047
     Advances from the Public                                                         3,558                 3,366
        Total with the Public                                                         5,526                 4,413
     TOTAL                                                              $             5,536   $             4,426



                       LIABILITIES COVERED AND NOT COVERED
   NOTE 12
                       BY BUDGETARY RESOURCES

                                                                                    (in thousands)
                                                                            FY 2008              FY 2007
     Liabilities Covered by Budgetary Resources                     $           1,304,584 $          1,227,931
     Liabilities Not Covered by Budgetary Resources:
        Intragovernmental                                                           1,555                1,634
        With the Public                                                            31,140               29,909
     TOTAL                                                          $           1,337,279 $          1,259,474

Liabilities covered by budgetary resources include accounts payable, advances from others, accrued funded payroll
and benefits, custodial liabilities, deposit account liabilities, advances from the public, and deferred credits.

Liabilities not covered by budgetary resources include accrued unfunded annual and compensatory leave, accrued
unfunded workers compensation, and other unfunded liabilities.




                                                                                                                     41
Notes to the Consolidated Financial Statements


     `
          NOTE 13              PROGRAM COSTS BY BUDGET OBJECT CLASSIFICATION

                                                           (Dollars in Thousands)


         FY 2008 Program Costs by Budget Object Classification

                                              Depreciation and    Other Program Costs
                                                Amortization            $41,453
                                                 $14,465                  5%
                      Non-Capitalizable             2%
                        Equipment
                          $3,280
                            0%



                       Library Materials
                           $67,309
                              9%


                                                                                        Personnel Services and
                                                                                               Benefits
                  Contractual Services                                                        $432,818
                       $220,046                                                                 56%
                         28%




         FY 2007 Program Costs by Budget Object Classification

                                             Depreciation and    Other Program Costs
                                               Amortization            $50,283
                                                 $6,985                  6%
                                                   1%
                         Non-Capitalizable
                           Equipment
                             $29,076
                               4%

                   Library Materials
                       $66,185
                          8%


                                                                                        Personnel Services and
                                                                                               Benefits
                                                                                              $423,040
                                                                                                52%
                    Contractual Services
                         $230,829
                           29%



     The Library’s collections are classified as “heritage assets.” $22.1 million and $19.6 million of the amount
     designated as “Library Materials” above represents the fiscal years 2008 and 2007 cost incurred by the Library for
     “heritage assets.”




42
                                                                      Notes to the Consolidated Financial Statements



                        PROGRAM COSTS AND EARNED REVENUE
   NOTE 14
                        BY FUNCTIONAL CLASSIFICATION

A. Program Costs by Functional Classification

                                                                                    (in thousands)
                                                                           FY 2008                FY 2007
     Commerce and Housing Credit                                      $          37,778      $           61,453
     Education, Training, Employment, and Social Services                       631,326                 638,143
     General Government                                                         110,267                 106,802
     TOTAL                                                            $         779,371      $          806,398


B. Earned Revenue by Functional Classification

                                                                                   (in thousands)
                                                                           FY 2008              FY 2007
     Commerce and Housing Credit                                      $          32,828 $              33,423
     Education, Training, Employment, and Social Services                        83,050                81,180
     General Government                                                               23                   16
     TOTAL                                                            $         115,901 $             114,619




   NOTE 15              EXCHANGE REVENUES

In accordance with Library of Congress Regulation (LCR) 1510, Financial Services, the Library must comply with
any OMB circular or bulletin if it is specifically prescribed in (1) a LCR, (2) a FSD Directive, or (3) if required by
law. OMB Circular No. A-25, User Charges, does not fall into any of these three categories, but may be used by the
Library as a useful point of reference. Circular No. A-25 requires that user charges be sufficient to recover the full
costs to the federal government. Full costs include all direct and indirect costs to any part of the federal government
of providing the good or service, including unreimbursed inter-entity costs.

The Copyright Office’s registration operations have legislatively mandated fees, which do not require the recovery
of the full costs of operations. The Register is authorized to fix fees at a level not more than necessary to recover
reasonable costs incurred for services plus a reasonable adjustment for inflation. Fees should also be fair and
equitable and give due consideration to the objectives of the copyright system.

If the Library were to increase fees and prices to recover full costs to the government for providing these goods and
services, this would in some cases reduce the quantity of goods and services demanded. It is not practicable to
provide reasonable estimates regarding (1) revenue foregone from charging fees that do not recover full costs to the
government and (2) to what extent the quantity of goods and services demanded would change as a result of changes
in prices and fees.




                                                                                                                          43
Notes to the Consolidated Financial Statements



                        PROGRAM COSTS AND EARNED REVENUE
       NOTE 16
                        FOR REVOLVING FUNDS

                                                                                    (in thousands)
                                                                               FY 2008         FY 2007
                Audio Visual Services: Program Cost                          $         252 $           557
                                       Less: Earned Revenue                          (165)           (148)
                                       Net Program Cost                                 87             409


              Cooperative Acquisitions Program Cost                                     2,734          3,047
                            Program: Less: Earned Revenue                             (3,095)        (2,949)
                                       Net Program Cost                                 (361)             98

                Decimal Classification: Program Cost                                     327            348
                                        Less: Earned Revenue                           (249)          (293)
                                        Net Program Cost                                  78             55


           Document Reproduction and Program Cost                                       2,728          2,618
                  Microfilm Services: Less: Earned Revenue                            (1,425)        (1,649)
                                      Net Program Cost                                  1,303            969

                 Gift Shop Operations: Program Cost                                     1,675          1,527
                                       Less: Earned Revenue                           (1,492)        (1,423)
                                       Net Program Cost                                   183            104

            Federal Research Division: Program Cost                                     2,870          2,722
                                       Less: Earned Revenue                           (2,477)        (4,121)
                                       Net Program Cost                                   393        (1,399)

                           FEDLINK: Program Cost                                       67,856         63,409
                                    Less: Earned Revenue                             (67,694)       (63,675)
                                    Net Program Cost                                      162          (266)

                       Special Events: Program Cost                                     2,784          2,594
                                       Less: Earned Revenue                           (1,349)        (1,675)
                                       Net Program Cost                                 1,435            919

                                        Total Program Cost                             81,226         76,822
                                        Less: Total Earned Revenue                   (77,946)       (75,933)
                                        TOTAL PROGRAM COSTS                  $          3,280   $        889

                                 These programs are discussed further in Note 1.D.




44
                                                                    Notes to the Consolidated Financial Statements



  NOTE 17                CLASSIFICATION OF PROGRAM COSTS


                                                                     (in thousands)
                                            Intragovernmental               Public
                                                          Non-                     Non-             Total
               FY 2008                   Production
                                                       Production
                                                                   Production
                                                                                Production
National Library                         $   119,437 $          29 $ 310,328 $          122 $         429,916
Law Library                                    8,261           1          15,191                       23,453
Copyright Office                              20,612          (1)         33,071            (1)        53,681
Congressional Research Service                29,288          14          99,897                      129,199
National Library Service for the Blind
                                               7,796          10          37,672                       45,478
and Physically Handicapped
Revolving and Reimbursable Funds               6,846          25          90,773                       97,644
TOTAL                                    $   192,240 $        78 $       586,932 $         121 $      779,371




                                                                     (in thousands)
                                            Intragovernmental               Public
                                                          Non-                     Non-             Total
               FY 2007                   Production
                                                       Production
                                                                   Production
                                                                                Production
National Library                         $   117,045 $          38 $ 316,646 $          103 $         433,832
Law Library                                    8,216           2          15,707             0         23,925
Copyright Office                              27,742          23          51,206             2         78,973
Congressional Research Service                31,216          13          96,459             0        127,688
National Library Service for the Blind
                                              10,394           6          40,640             0         51,040
and Physically Handicapped
Revolving and Reimbursable Funds               6,461          25          84,454             0         90,940
TOTAL                                    $   201,074 $        107 $      605,112 $         105 $      806,398




                                                                                                                45
Notes to the Consolidated Financial Statements



          NOTE 18            EARMARKED FUNDS

     SFFAS No. 27, “Identifying and Reporting Earmarked Funds”, effective October 1, 2005, defines “earmarked
     funds” as those being financed by specifically identified revenues, often supplemented by other financing sources,
     which remain available over time. These specifically identified revenues and financing sources are required by
     statute to be used for designated activities, benefits or purposes, and must be accounted for separately from the
     Government’s general revenues. The Library’s consolidated financial statements include the results of operations
     and financial position of its funds identified as “earmarked funds.” The Library’s earmarked funds are presented
     among the following classifications:

     •	   Collections of fees authorized annually for use by appropriations act for:
          •	 The Cataloging Distribution Service (CDS), which is the distribution arm for the Library of Congress
              bibliographic data and related technical publications. Pursuant to 2 U.S.C. 150, CDS sells its products to
              libraries throughout the United States and around the world and charges “…a price which will cover their
              costs plus ten per centum added.” CDS earned revenues were $4,050,383 and $4,564,512 for fiscal year
              2008 and 2007, respectively.
          •	 The Law Library, pursuant to Public Law 105-275, Section 208, is authorized to receive funds from
              participants in and sponsors of an international legal information database (known as the Global Legal
              Information Network (GLIN)) led by the Law Library of Congress. Fees for the development and
              maintenance of GLIN were $2,500 and $7,500 for fiscal year 2008 and 2007, respectively; and
          •	 The Copyright Office, pursuant to 17 U.S.C. 708(d), is authorized to collect fees for the registration of a
              copyright claim and other copyright recordation and filing activities. Fees collected for these services
              were $29,592,084 and $29,499,515 for fiscal 2008 and 2007, respectively.
          •	 The Recycling Program, pursuant to Public Law 108-199, Section 607, is authorized to collect funds
              resulting from the sale of materials recovered through the recycling program. Fees collected for the
              program were $25,408 and $21,691 for the fiscal years 2008 and 2007.

     •	   Public Revolving Funds authorized by 2 U.S.C. 182 for the Cooperative Acquisitions, Audio and Video
          Duplication, Gift Shop Operations, Decimal Classification, Document Reproduction and Microfilm Services,
          and Special Events (these programs are discussed further in Note 1.D. and 16);

     •	   Gift and TFB Funds authorized by 2 U.S.C. 154-163 (and discussed further in Note 1. E.). Gift and TFB Fund
          cash donations and other realized revenues were $23,566,677 and $18,077,496 for fiscal year 2008 and 2007,
          respectively; and

     •	   Other earmarked funds not outlined above (combined revenues of $2,634 and $7,678 for fiscal year 2008 and
          2007, respectively), including: The Oliver Wendell Holmes Devise Fund, which is authorized to fund lectures
          known as the “Oliver Wendell Holmes Lectures” and other projects pertaining to Justice Holmes or the
          Supreme Court (Pursuant to Public Law 84-247); The Gertrude M. Hubbard Bequest, which benefits the
          Gardiner Greene Hubbard Collection (Pursuant to 37 Stat. 319-20); and the Foreign Service National Separation
          Liability Trust Fund, which is authorized to provide the separation pay for foreign national employees (Pursuant
          to Section 151 of Public Law 102-138).

     The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
     earmarked funds. The cash receipts collected from the public for an earmarked fund are deposited into the U.S.
     Treasury, which uses the cash for general Government purposes. Treasury securities are issued to the Library as
     evidence of its receipts. Treasury securities are an asset to the Library and a liability to the U.S. Treasury. Because
     the Library and the U.S. Treasury are both parts of the Government, these assets and liabilities offset each other
     from the standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in the
     U.S. Government-wide financial statements. Treasury Securities provide the Library with authority to draw upon
     the U.S. Treasury to make future expenditures. When the Library requires redemption of these securities to make
     expenditures, the Government finances those expenditures out of accumulated cash balances, by raising taxes or
     other receipts, by borrowing from the public or repaying less debt, or by curtailing other expenditures. This is the
     same way the Government finances all other expenditures.


46
                                                                   Notes to the Consolidated Financial Statements


Fiscal data as of, and for the year ended September 30, 2008 is summarized below. Intra-agency transactions have
not been eliminated in the amounts presented below.

                                                                    (in thousands)
                                      Offsetting        Public                         Other          Total
                                                                     Gift and
              FY 2008                 Collections      Revolving
                                                                    TFB Funds
                                                                                     Earmarked      Earmarked
                                        Funds           Funds                          Funds          Funds
Balance Sheet:
 Fund Balance with Treasury           $     14,314 $         7,556 $      14,065 $           989 $        36,924
 Investments in U.S. Treasury
                                                                          47,235              67          47,302
 Securities
 Other Assets                               16,753           1,072        88,021                         105,846
Total Assets                          $     31,067 $         8,628 $     149,321 $         1,056 $       190,072

 Liabilities                       $         4,911 $         5,380 $      2,443 $             20 $        12,754
 Cumulative Results of Operations           26,156           3,248      146,878            1,036         177,318
Total Liabilities and Net Position $        31,067 $         8,628 $    149,321 $          1,056 $       190,072

Statement of Net Cost:
  Program Costs                       $     30,037 $        11,406 $      19,355 $            82 $        60,880
  Less: Earned Revenue                    (33,670)        (10,280)         (747)                        (44,697)
Net Cost of Operations                $    (3,633) $         1,126 $      18,608 $            82 $        16,183

Statement of Changes in Net
Position:
Net Position, Beginning               $     19,891 $         3,304 $ 167,552 $               966 $      191,713
  Net Cost                            $      3,633 $       (1,126) $ (18,608) $              (82) $     (16,183)
  Non-Exchange Revenues                                                 1,602                   3          1,605
  Other Financing Sources                    2,632           1,070    (3,668)                 149            183
Change in Net Position                       6,265            (56)   (20,674)                  70       (14,395)
Net Position, Ending                  $     26,156 $         3,248 $ 146,878 $           1,036    $     177,318




                                                                                                                   47
Notes to the Consolidated Financial Statements



     Fiscal data as of, and for the year ended September 30, 2007 is summarized below.

                                                                            (in thousands)
                                           Offsetting        Public                            Other       Total
                                                                             Gift and
                   FY 2007                 Collections      Revolving
                                                                            TFB Funds
                                                                                             Earmarked   Earmarked
                                             Funds           Funds                             Funds       Funds
     Balance Sheet:
      Fund Balance with Treasury           $     22,102 $         7,308 $        13,301 $           909 $    43,620
      Investments in U.S. Treasury
                                                      0                 0        43,780             67       43,847
      Securities
      Other Assets                                2,671           1,190         112,872               0     116,733
     Total Assets                          $     24,773 $         8,498 $       169,953 $           976 $   204,200

      Liabilities                       $         4,882 $         5,194 $         2,401 $            10 $    12,487
      Cumulative Results of Operations           19,891           3,304         167,552             966     191,713
     Total Liabilities and Net Position $        24,773 $         8,498 $       169,953 $           976 $   204,200

     Statement of Net Cost:
       Program Costs                       $     34,691 $       11,670           17,237 $           78 $      63,676
       Less: Earned Revenue                    (34,062)         (9,404)           (621)             (4)     (44,091)
     Net Cost of Operations                $        629 $         2,266 $        16,616 $           74 $      19,585

     Statement of Changes in Net
     Position:
     Net Position, Beginning               $    21,258 $          4,659 $ 153,475 $                881 $    180,273
       Net Cost                            $      (629) $       (2,266) $ (16,616) $               (74) $   (19,585)
       Non-Exchange Revenues                          0               0      3,079                    4        3,083
       Other Financing Sources                    (738)             911     27,614                 155        27,942
       Change in Net Position                   (1,367)         (1,355)     14,077                   85       11,440
     Net Position, Ending                  $     19,891 $         3,304 $ 167,552 $                966 $    191,713




48
                                                                      Notes to the Consolidated Financial Statements



   NOTE 19              BUDGETARY RESOURCES

Budgetary resources are classified as follows:

                                                                   (in thousands)
                                            FY 2008                                         FY 2007
                                              Non-                                            Non-
                              Appropriated                                    Appropriated
                                           Appropriated        Combined                    Appropriated      Combined
                                Capital                                         Capital
                                             Capital                                         Capital
Budgetary Resources:
Unobligated Balance,
                              $     50,125 $     1,188,039 $    1,238,164     $     104,802 $    1,195,391 $ 1,300,193
Brought Forward, October 1
Recoveries of Prior-Year
                                     8,572         10,758          19,330             5,858         4,892        10,750
Obligations
Budget Authority:
 Appropriation                     564,460        295,910         860,370           558,309       308,501       866,810
 Spending Authority from
 Offsetting Collections:
  Earned:
   Collected                           273        129,118         129,391              339        132,953       133,292
   Change in Receivables
                                      (82)           (732)          (814)                69        (1,616)      (1,547)
   from Federal Sources
  Change in Unfilled
  Customer Orders:
   Advances Received                     0          2,472           2,472                 0         3,426         3,426
   Without Advances from
                                         0         (1,340)        (1,340)                 0        (2,174)      (2,174)
   Federal Sources
 Expenditure Transfers from
 Trust Funds
Subtotal Budget Authority          564,651        425,428         990,079           558,717       441,090       999,807
Nonexpenditure Transfers,
                                     (748)                          (748)             (594)        (2,700)      (3,294)
Net
Temporarily Not Available
                                         0              0                 0               0             0               0
Pursuant to Public Law
Permanently Not Available           (6,412)          (635)         (7,047)          (53,079)          (45)    (53,124)
Total Budgetary Resources     $    616,188 $     1,623,590 $    2,239,778     $      615,704 $   1,638,628 $ 2,254,332

Status of Budgetary
Resources:
Obligations Incurred:
  Direct                      $    594,506 $      229,889 $       824,395     $     565,579 $     317,543 $   883,122
  Reimbursable                           0        141,761         141,761                 0       133,046     133,046
Total Obligations Incurred         594,506        371,650         966,156           565,579       450,589   1,016,168
Unobligated Balance
(Exempt from                         9,422       1,251,371      1,260,793            38,767      1,187,685    1,226,452
Apportionment)
Unobligated Balance – Not
                                    12,260            569          12,829            11,358           354        11,712
Available
Total Status of Budgetary
                              $    616,188 $     1,623,590 $    2,239,778     $     615,704 $    1,638,628 $ 2,254,332
Resources




                                                                                                                            49
Notes to the Consolidated Financial Statements


                                                                        (in thousands)
                                                   FY 2008                                     FY 2007
                                                     Non-                                        Non-
                                     Appropriated                                Appropriated
                                                  Appropriated      Combined                  Appropriated            Combined
                                       Capital                                     Capital
                                                    Capital                                     Capital

     Change in Obligated
     Balance:
     Unpaid Obligated Balance,
     Net, Brought Forward,
     October 1:
      Unpaid Obligations,
                                     $    168,988 $     71,427 $       240,415   $       185,146 $         67,949 $      253,095
      Brought Forward
      Less: Uncollected
      Customer Payments,                     (223)     (10,518)       (10,741)             (154)          (14,308)       (14,462)
      Brought Forward
     Total Unpaid Obligation
                                          168,765       60,909         229,674           184,992           53,641        238,633
     Balance, Net
      Obligations Incurred, net            594,506      371,650        966,156         565,579             450,589      1,016,168
      Less: Gross Outlays                (542,344)    (363,597)      (905,941)       (575,879)           (442,219)    (1,018,098)
      Less: Recoveries of Prior-
                                           (8,572)     (10,758)       (19,330)           (5,858)           (4,892)       (10,750)
      Year Unpaid Obligations
      Change in Uncollected
      Customer Payments from                   82         2,072          2,154              (69)            3,790          3,721
      Federal Sources
     Total Unpaid Obligated
     Balance, Net:
      Unpaid Obligations                  212,578       68,722         281,300           168,988           71,427        240,415
      Less: Uncollected
      Customer Payments from                 (141)      (8,446)        (8,587)             (223)          (10,518)       (10,741)
      Federal Sources
     Total Unpaid Obligated
     Balance, Net, End of            $    212,437 $     60,276 $       272,713   $       168,765 $         60,909 $      229,674
     Period

     Net Outlays:
      Gross Outlays                  $    542,344 $     363,597 $      905,941   $       575,879 $         442,219 $ 1,018,098
      Less: Offsetting Collections          (273)     (131,591)      (131,864)             (339)         (136,379)   (136,718)
      Less: Distributed Offsetting
                                                0      (29,153)       (29,153)                0           (58,253)       (58,253)
      Receipts
     Total Net Outlays               $    542,071 $    202,853 $       744,924   $       575,540 $        247,587 $      823,127

     For TFB funds, approximately $16.7 and $11.4 million of unobligated authority for fiscal years 2008 and 2007,
     respectively, at the donor’s request, is restricted from being spent on program costs (income from investing
     restricted donations under the Library’s Total Return Policy can be spent on program costs). These amounts are
     invested either in the permanent loan or in Treasury securities. An additional $76.0 and $77.4 million of restricted
     authority has been obligated and expended to invest in non-Treasury securities for the fiscal years 2008 and 2007,
     respectively.

     Undelivered orders, end of period:
                                                                                            (in thousands)
                                                                                 FY 2008                    FY 2007
          Paid                                                             $                1,305    $                 1,403
          Unpaid                                                                         214,359                     179,691
          TOTAL                                                            $             215,664     $               181,094



50
                                                                   Notes to the Consolidated Financial Statements



                     RECONCILIATION OF NET COST OF
  NOTE 20
                     OPERATIONS TO BUDGET

                                                                                             (in thousands)
                                                                                         FY 2008        FY 2007
RESOURCES USED TO FINANCE ACTIVITIES
  Budgetary Resources Obligated:
     Obligations Incurred                                                            $      966,156 $    1,016,168
     Less: Spending Authority from Offsetting Collections and Recoveries                  (149,040)      (143,747)
     Obligations Net of Offsetting Collections and Recoveries                               871,116        872,421
     Less: Distributed Offsetting Receipts                                                 (29,153)       (58,253)
     Net Obligations                                                                        787,963        814,168
  Other Resources:
     Donations of Property and Services                                                      25,537             40,861
     Imputed Financing from Costs Absorbed by Others                                         81,271             78,436
     Exchange Revenue not in the Budget                                                          84                182
     Non-exchange Revenue not in the Budget                                                 (1,560)            (1,375)
     Trust/Special Fund Exchange Revenue Receipts                                           (3,976)            (4,541)
     Other Resources (+/-)                                                                 (23,985)             13,597
  TOTAL RESOURCES USED TO FINANCE ACTIVITIES                                               865,334            941,328

RESOURCES USED TO FINANCE ITEMS NOT PART OF NET COST OF OPERATIONS
  Change in Budgetary Resources Obligated for Goods, Services, and Benefits
                                                                                           (32,459)            16,666
  Ordered but Not Yet Provided (+/-)
  Resources that Finance the Acquisition of Assets                                         (33,717)           (33,996)
  Budgetary Offsetting Receipts that do not Affect Net Cost of Operations                    29,153             58,253
  Other Resources or Adjustments to Net Obligated Resources that do not Affect Net
                                                                                          (207,528)       (284,804)
  Cost of Operations (+/-)
  TOTAL RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF
                                                                                          (244,551)       (243,881)
  OPERATIONS

TOTAL RESOURCES USED TO FINANCE THE NET COST OF OPERATIONS                                 620,783            697,447

COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
GENERATE RESOURCES IN THE CURRENT PERIOD
   Components Requiring or Generating Resources in Future Periods:
      Increase in Annual Leave Liability and Actuarial Liability                             1,152              (554)
      Other                                                                                      0                (4)
   Total Components Requiring or Generating Resources in Future Periods                      1,152              (558)
   Components not Requiring or Generating Resources:
      Depreciation and Amortization                                                         14,465               6,985
      Revaluation of Assets or Liabilities                                                  27,129            (12,104)
      Other Costs not Requiring or Generating Budgetary Resources (+/-)                       (59)                   9
   Total Components not Requiring or Generating Resources                                   41,535             (5,110)
TOTAL COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE
                                                                                            42,687             (5,668)
OR GENERATE RESOURCES IN THE CURRENT PERIOD


NET COST OF OPERATIONS                                                               $     663,470 $          691,779




                                                                                                                         51
Notes to the Consolidated Financial Statements




52
                            INDEPENDENT AUDITOR’S REPORT


Office of the Inspector General
Library of Congress

We have audited the accompanying consolidated balance sheets of the Library of Congress (the
Library) as of September 30, 2008 and 2007, and the related consolidated statements of net cost,
statements of changes in net position, and combined statements of budgetary resources
(hereinafter referred to as the financial statements) for the year then ended. These financial
statements are the responsibility of the Library’s management. Our responsibility is to express
an opinion on these financial statements based on our audit.

SUMMARY

As stated in our opinion on the financial statements, we concluded that the Library’s financial
statements for the year ended September 30, 2008, are presented fairly, in all material respects,
in conformity with accounting principles generally accepted in the United States of America.

Our consideration of internal control over financial reporting (including the safeguarding of
assets) resulted in the identification of one significant deficiency:

   •	   Property and Equipment Accountability and Internal Control Procedures.

However, we do not consider this significant deficiency to be a material weakness.

The results of our tests of compliance with certain provisions of laws and regulations disclosed
no instances of noncompliance that are required to be reported herein under Government
Auditing Standards issued by the Comptroller General of the United States.

As a result of our examination of management’s assertion, which is presented in Section 3, we
concluded that management fairly stated the following Heritage Asset control weaknesses:

   •	   The Library’s management cannot provide reasonable assurance that the internal control
        structure over the safeguarding of Heritage Assets against unauthorized acquisition, use,
        or disposition was completely effective as of September 30, 2008, for all of the Library’s
        collections
   •	   The Library’s management cannot assert that inventory controls were fully implemented
        during the in-processing and in-storage life cycles for all of the Special Collections, as of
        September 30, 2008.

The following sections discuss our opinion on the Library’s financial statements, our
consideration of the Library’s internal control over financial reporting, our tests of the Library’s


                                                                                                    57
compliance with certain provisions of applicable laws and regulations, and management’s and
our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of the Library as of September
30, 2008 and 2007, and the related consolidated statements of net cost, statements of changes in
net position, and combined statement of budgetary resources for the years then ended. These
financial statements are the responsibility of the Library’s management. Our responsibility is to
express an opinion on these financial statements based on our audits.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the Library as of September 30, 2008 and 2007, and its net cost of
operations, changes in net position, and budgetary resources for the years then ended, in
conformity with accounting principles generally accepted in the United States of America.

Our audit was conducted for the purpose of forming an opinion on the financial statements
referred to in the first paragraph. The information contained in the Management’s Discussion
and Analysis and Stewardship Report is not a required part of the Library’s financial statements,
but is considered supplementary information required by OMB Circular No. A-136, Financial
Reporting Requirements. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation
of this information; however, we did not audit this information and we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit, we considered the Library’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of the Library’s internal
control, determining whether these controls had been placed in operation, assessing control risk,
and performing tests of the Library’s controls in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements and not to provide an opinion
on the internal controls. Accordingly, we do not express an opinion on the effectiveness of the
Library’s internal control over financial reporting.

We limited our control testing to those controls necessary to achieve the following OMB control
objectives that provide reasonable, but not absolute assurance, that: 1) transactions are properly


58
recorded, processed, and summarized to permit the preparation of the financial statements in
accordance with accounting principles generally accepted in the United States of America, and
assets are safeguarded against loss from unauthorized acquisition, use, or disposition; 2)
transactions are executed in compliance with laws governing the use of budget authority,
government-wide policies and laws identified in Appendix E of OMB Bulletin No. 07-04, and
other laws and regulations that could have a direct and material effect on financial statements;
and 3) transactions and other data that support reported performance measures are properly
recorded, processed, and summarized to permit the preparation of performance information in
accordance with criteria stated by management. We did not test all internal controls relevant to
the operating objectives broadly defined by the Federal Managers’ Financial Integrity Act of
1982.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the Library’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with generally accepted accounting
principles, such that there is more than a remote likelihood that a misstatement of the Library’s
financial statements that is more than inconsequential will not be prevented or detected by the
Library’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the Library’s internal control. Our consideration of internal
control was for the limited purpose described in the second paragraph of this report, and would
not necessarily identify all deficiencies in internal control that might be significant deficiencies
or material weaknesses. We noted one matter, discussed below, involving the internal control
and its operation that we consider to be a significant deficiency.

SIGNIFICANT DEFICIENCY

1.     Property and Equipment Accountability and Internal Control Procedures

Office of the Chief Financial Officer (OCFO) Directive 08-10, Guidelines for Accounting for
Capitalized Property and Depreciation, and Library of Congress Regulation (LCR) 1615-1,
Asset Control, governs the process related to fixed assets. Integrated Support Services (ISS)
records and monitors fixed assets in IBCFACS, a standalone property management system. ISS
is responsible for receiving property deliveries, recording the items in IBCFACS, and delivering
the assets to the service units. Additionally, ISS is responsible for the custody of assets,
reconciliation of assets between IBCFACS and Momentum, and completing physical inventory.
The OCFO is responsible for fixed asset accounting and transaction processing in the Fixed
Asset Module sub-ledger in Momentum, which is the financial reporting system of record. The
OCFO reviews purchase requisitions for capitalization treatment and creates shells in
Momentum. These shells are recorded as assets in IBCFACS and Momentum when the assets
are received.


                                                                                                   59
The OCFO implemented the Momentum Fixed Asset Module late in fiscal year (FY) 2008, and
considered FY 2008 to be a transition year as it related to the internal control design. The
reconciliation between the two ledgers was performed in the fourth quarter of FY 2008. The
OCFO reviewed the IBCFACS report provided by ISS and compared it to the Fixed Asset
Module. Any differences identified were sent to ISS for an explanation. However, the OCFO
recorded subsequent adjustments without a qualitative assessment of the underlying cause. This
resulted in a segregation of duties issue, because ISS was responsible for the receiving, recording,
and tracking of assets, and the OCFO recorded its adjustments in the financial records without
vetting and analysis.

We noted other matters involving internal control and its operations over financial reporting,
which have been reported to the Library’s management in a separate letter, dated February 10,
2009.

COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether the financial statements are free of
material misstatement, we performed tests of its compliance with laws and regulations, including
laws governing the use of budgetary authority, laws, regulations, and government-wide policies
identified in Appendix E of OMB Bulletin No. 07-04, and other laws, noncompliance with which
could have a direct and material effect on the determination of financial statement amounts. We
limited our tests of compliance to these provisions and did not test compliance with all laws and
regulations applicable to the Library. However, providing an opinion on compliance with certain
provisions of laws and regulations was not an objective of our audit, and, accordingly, we do not
express such an opinion.

The results of our tests of compliance described in the preceding paragraph disclosed no
instances of noncompliance or other matters that are required to be reported under Government
Auditing Standards and OMB Bulletin No. 07-04.

                                               -----

This report is intended solely for the information and use of the Library’s Office of Inspector
General, Library management, OMB, Government Accountability Office, and Congress, and is
not intended to be, and should not be, used by anyone other than these specified parties.




February 10, 2009
Alexandria, Virginia




60
                           INDEPENDENT AUDITOR’S REPORT


We have examined management’s assertion, which is presented in Section 3, that the Library of
Congress (the Library) cannot provide reasonable assurance that its internal control structure
over the safeguarding of assets (collections) against unauthorized acquisition, use, or disposition,
was effective as of September 30, 2008. The control criteria included bibliographical, inventory,
preservation, and physical security controls, as set forth in management’s assertion. The
Library’s management is responsible for the assertion. Our responsibility is to express an
opinion on the assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and, accordingly, included examining, on a
test basis, evidence supporting management’s assertion, and performing such other procedures as
we considered necessary in the circumstances. We believe that our examination provides a
reasonable basis for our opinion.

Because of inherent limitations in internal controls, the unauthorized acquisition, use, or
disposition of collection assets may occur and not be detected. Also, projections of any
evaluation of internal controls over the safeguarding of assets to future periods are subject to the
risk that internal controls may become inadequate because of changes in conditions, or that the
degree of compliance with the policies or procedures may deteriorate.

In our opinion, management’s assertion, which is presented in Section 3, is fairly stated, in all
material respects, based upon control criteria, bibliographical, inventory, preservation, and
physical security controls. In addition, management’s assertion that the Library’s collection
inventory controls were not fully implemented during the in-processing and in-storage life
cycles, as of September 30, 2008, is fairly stated based upon the criteria described above.




February 10, 2009
Alexandria, Virginia




                                                                                                    61
